 Semiannual Report to Congress
  Office of Inspector General for the U.S. Department of Labor




Volume 71                             October 1, 2013 — March 31, 2014
         A Message from the Inspector General


I am pleased to submit this Semiannual Report to the Department and the Congress, which highlights
the most significant activities and accomplishments of the U.S. Department of Labor (DOL) – Office of
Inspector General (OIG) for the six-month period ending March 31, 2014. Our audits and investigations
continue to assess the effectiveness, efficiency, economy, and integrity of DOL’s programs and
operations. We also continue to investigate the influence of labor racketeering and organized crime
with respect to internal union affairs, employee benefit plans, and labor-management relations.

During this reporting period, the OIG issued 21 audit and other reports, which among other things found the
following:
• 	 The use of an optional press lock-up to provide pre-release access for news organizations to DOL’s
    Unemployment Insurance Claims Report may have provided a competitive trading advantage to these
    organizations and their clients.
• 	 Employment and Training Administration grantees did not have proper controls in place to support
    payments made through On-the-Job Training National Emergency Grants, resulting in questioned
    costs of $362,267.
• 	 More action is needed by the Mine Safety and Health Administration to strengthen the process
    for detecting and deterring underreporting of injuries and illnesses in the mining industry.
• 	 The Occupational Safety and Health Administration could not ensure that only those employers with
    exemplary safety and health programs were allowed to remain in its Voluntary Protection Program.

The OIG’s investigative work also yielded impressive results, with a total of 199 indictments, 234 convictions,
 and $33.8 million in monetary accomplishments. Highlights include the following:
• 	 The former president of the Metal Polishers Union Local 8A-28A was sentenced to four years in prison and
    ordered to pay more than $800,000 in restitution for his involvement in multiple benefit plan
    embezzlement schemes.
• 	 A Colorado business owner was sentenced to more than 10 years in prison for his role in an H-1B visa
    fraud scheme, after being found guilty of 89 counts of mail fraud, visa fraud, human trafficking, and money
    laundering.
• 	 A Nevada woman was sentenced to 57 months in prison and ordered to pay more than $477,000 in
    restitution for stealing from the Unemployment Insurance program and other federal benefit programs.
• 	 The former president of the Service Employees International Union Local 6434 was sentenced to 33
    months in prison for stealing funds from the union.

These are some examples of the exceptional work done by our dedicated OIG staff. I would like to
express my gratitude to them for their significant achievements during this reporting period.

I look forward to continuing to work constructively with the Department and the Congress on our shared
goals of identifying improvements to DOL programs and operations, and protecting the rights and benefits of
workers and retirees.



                                                                                                Scott S. Dahl
                                                                                            Inspector General
–




               Selected Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
               Significant Concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

               Employment and Training Programs
               Employment and Training Administration Programs . . . . . . . . . 8
    Contents   Foreign Labor Certification Programs . . . . . . . . . . . . . . . . . . . 10
               Veterans’ Employment and Training Service . . . . . . . . . . . . . 13

               Worker Safety, Health, and Workplace Rights
               Mine Safety and Health Administration . . . . . . . . . . . . . . . . . . 16
               Occupational Safety and Health Administration . . . . . . . . . . . 17
               Wage and Hour Programs. . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

               Worker and Retiree Benefit Programs
               Unemployment Insurance Programs . . . . . . . . . . . . . . . . . . . 20
               Employee Benefit Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
               Office of Workers’ Compensation Programs . . . . . . . . . . . . . . 24

               Labor Racketeering
               Benefit Plan Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
               Union Corruption and Fraud Investigations . . . . . . . . . . . . . . 33
               Labor-Management Investigations . . . . . . . . . . . . . . . . . . . . . 35

               Departmental Management  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 38
               Single Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40
               Employee Integrity Investigations . . . . . . . . . . . . . . . . . . . . . . 41

               Legislative Recommendations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 44

               Appendices  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 48




                                                    Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                      Selected Statistics


            Investigative recoveries, cost-efficiencies, restitutions,
	
                                                                      
	
            fines and penalties, forfeitures, and civil monetary action1 .......$33.8 million
	
                                                                                             
	

            Investigative cases opened .....................................................................178
	
                                                                                                               
	

            Investigative cases closed.......................................................................253
	
                                                                                                                
	

            Investigative cases referred for prosecution............................................143
	
                                                                                                       
	

            Investigative cases referred for administrative/civil action.........................89
	
                                                                                                   
	

            Indictments ..............................................................................................199
	
                                                                                                                         
	

            Convictions ..............................................................................................234
	
                                                                                                                         
	

            Debarments ...............................................................................................27
	
                                                                                                                        
	




            Audit and other reports issued...................................................................21
	
                                                                                                               
	
            Total questioned costs2 ...............................................................$0.3 million
	
                                                                                                               
	

            Outstanding questioned costs resolved during this period. ....... $11.2 million
	                        
	
               Allowed ................................................................................. $6.7 million


               Disallowed .............................................................................$4.5 million
	
	




         1 These monetary accomplishments do not include the following case, which involved the participation
             of DOL-OIG and other law enforcement agencies:
             •		
              		 The former owner of a construction company involved in a Disadvantaged Business Enterprise
                  fraud scheme was ordered to pay criminal restitution of $119,409,724 to the U.S. Department of
                  Transportation, jointly and severally with four other co-defendants.
          2 	As defined by the Inspector General Act, questioned costs include alleged violations of law,
             regulations, contracts, grants, or agreements; costs not supported by adequate documentation; or
             the expenditure of funds for an intended purpose that was unnecessary or unreasonable. Disallowed
             costs are costs that the OIG questioned during an audit as unsupported or unallowable and that the
             grant/contracting officer has determined the auditee should repay. The Department is responsible for
             collecting the debts established. The amount collected may be less than the amount disallowed, and
             monies recovered usually cannot be used to fund other program operations and are returned to the
             U.S. Treasury.


2   Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                Significant Concerns
     The Office of Inspector General (OIG) works with the Department of Labor (DOL) and Congress to provide
  information and recommendations that will be useful in their management or oversight of the Department.
  The OIG has identified the following significant concerns, which involve programs and functions that are
  particularly vulnerable to mismanagement, error, fraud, waste, or abuse. Most of these issues appear in our
  annual Top Management Challenges report required under the Reports Consolidation Act of 2000, which
  can be found at www.oig.dol.gov.



Protecting the Safety and Health of                           MSHA remains challenged in maintaining a
Workers                                                       cadre of experienced and properly trained
                                                              enforcement staff to meet its statutory enforcement
With more than 8 million establishments under                 obligations. MSHA also faces challenges in
the oversight of the Occupational Safety and                  attracting senior leadership as more top managers
Health Administration (OSHA), the OIG remains                 increasingly become eligible for retirement.
concerned with OSHA’s ability to best target its
compliance activities to those areas where they               Improving Performance
can have the greatest impact. OSHA carries out its            Accountability of Workforce
enforcement responsibilities through a combination            Investment Act Grants
of self-initiated and complaint investigations but
can reach only a fraction of the entities it regulates.       Another area of concern for the OIG is the
Consequently, OSHA must strive to target the                  Department’s ability to ensure that Workforce
most egregious and persistent violators and                   Investment Act (WIA) grant programs are
protect the most vulnerable worker populations.               successful in training and placing workers in
We are also concerned with OSHA’s ability to                  suitable employment in order to reduce chronic
measure the impact of its policies and programs               unemployment, underemployment, and reliance
and those of the 21 states authorized by OSHA to              on social payments for the population it serves.
operate their own safety and health programs.                 Critical to this task is the Department’s ability to
                                                              obtain accurate and reliable data by which to
Protecting the Safety and Health of                           measure, assess, and make decisions regarding
Miners                                                        the performance of grantees and states in
                                                              meeting the programs’ goals. In addition, our
The ability of the Mine Safety and Health                     audit work over several decades, primarily as it
Administration (MSHA) to effectively manage                   relates to discretionary grants, has documented
its resources to meet statutory mine inspection               the difficulties encountered by the Department
requirements while successfully administering                 in obtaining quality employment and training
other enforcement responsibilities is a concern               providers; ensuring that performance expectations
for the OIG. Our audits have also shown that                  are clear to grantees and sub-grantees; providing


                                                    Semiannual Report to Congress: October 1, 2013 — March 31, 2014   3
                                          Significant Concerns
	
	

active oversight of the grant-making and grant                   improper payments. For fiscal year (FY) 2013,
execution process; disseminating proven strategies               the Department reported improper payments
and programs for replication; and importantly,                   totaling approximately $7.68 billion for the UI
ensuring that training provided by grantees leads                program, which are mainly the result of claimants
to placement in training-related jobs that reduce                who have returned to work and continue to claim
participants’ reliance on social programs.                       UI benefits. OIG investigations also continue to
                                                                 uncover fraud committed by individual UI recipients
Ensuring the Effectiveness of the Job                            who do not report or who underreport earnings,
Corps Program                                                    as well as fraud related to fictitious employer
                                                                 schemes. Similarly, we remain concerned with
The OIG remains concerned with Job Corps’ ability                the Department’s ability to identify the full extent
to provide safe residential and nonresidential                   of improper payments in the FECA and WIA
education and training programs that truly assist                programs. Our reviews of the Department’s
at-risk, disadvantaged youth (ages 16 to 24)                     annual reporting on improper payments have
in turning their lives around. Our audits have                   noted limitations of the methodologies used to
demonstrated the challenge the program faces                     estimate improper payments in these programs.
in obtaining and documenting desired program
outcomes, to include placing students in training-               Maintaining the Integrity of Foreign
related employment. Also of concern for the OIG                  Labor Certification Programs
are administrative and financial management
weaknesses and, in particular, recent budget                     The Department’s administration of the foreign
overruns that affected Job Corps program                         labor certification process, which permits U.S.
operations. Finally, we remain concerned with                    businesses access to foreign workers to meet
Job Corps’ ability to provide rigorous oversight of              their workforce needs while protecting the jobs
contractors at all centers to ensure they provide                and wages of U.S. workers, has been a concern
a safe environment that is conducive to learning,                the OIG has raised since the mid-1990s. Among
improve the transparency and reliability of                      our concerns is that DOL is statutorily required
performance metrics and outcomes, and ensure                     to certify H-1B applications unless it determines
that center operators and other service providers                them to be “incomplete or obviously inaccurate.” In
comply with applicable procurement requirements                  addition, OIG investigations have shown the H-1B
and provide the best value to the government.                    program to be susceptible to significant fraud and
                                                                 abuse, particularly by immigration attorneys, labor
Reducing Improper Payments                                       brokers, dishonest employers, and transnational
                                                                 organized crime groups. Our investigations
The Department’s ability to identify and reduce the              have revealed schemes in which fraudulent
rate of improper payments in the Unemployment                    applications were filed with DOL on behalf of
Insurance (UI), Federal Employees Compensation                   fictitious companies, individuals, and unscrupulous
Act (FECA), and WIA programs continues to                        businesses seeking to acquire foreign workers. In
be a concern for the OIG. Notably, the Office of                 the H-2B program, we remain concerned about the
Management and Budget (OMB) has designated                       sufficiency of recruitment efforts for U.S. workers
the UI and WIA programs as being at risk for                     before positions are filled by foreign workers,


4     Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                       Significant Concerns
	
	

as well as the need for the Department to move             value of those investments. Finally, beginning in
from the current attestation-based application             FY 2014, key provisions of the Affordable Care
process to a more compliance-based approach.               Act (ACA) will come into effect, and EBSA will
                                                           be responsible for ensuring plan sponsors and
Ensuring the Security of Employee                          their benefit plans comply with the new law.
Benefit Plan Assets
                                                           Securing and Protecting Information
The OIG remains concerned with DOL’s ability               Management Systems
to administer and enforce Employee Retirement
Income Security Act (ERISA) requirements that              Safeguarding data and information systems is
protect benefit plans for approximately 141 million        a continuing challenge for all federal agencies,
plan participants and beneficiaries. Among the             including DOL. Recent OIG audits have identified
Employee Benefits Security Administration’s                deficiencies in configuration management,
(EBSA’s) challenges over the past couple of                account management, and vulnerability
decades has been the fact that billions in pension         management, as well as security and access
assets held in otherwise regulated entities, such as       control weaknesses in key departmental financial
banks, escape full audit scrutiny. These concerns          and support systems. These deficiencies can
were renewed by recent audit findings that as              pose an increased risk to the security of data
much as $3.3 trillion in pension assets received           and information maintained in DOL systems.
limited-scope audits, providing few assurances
to participants as to the financial health of their        Ensuring the Effectiveness of
plans. In addition, given the number of benefit plans      Veterans’ Employment and Training
that the agency oversees relative to the number
                                                           Services Programs
of investigators, EBSA has to focus its available
resources on investigations that it believes will
                                                           Providing meaningful employment and training
most likely result in the deterrence, detection, and
                                                           services to military veterans and members
correction of ERISA violations. EBSA is further
                                                           transitioning to civilian employment remains a
challenged by the many changes that have taken
                                                           challenge for the Department. The Veterans’
place in the employee benefit plan community
                                                           Employment and Training Service (VETS) issues
since ERISA was enacted in 1974, such as the
                                                           grants to State Workforce Agencies to assist
shift from defined-benefit retirement plans to
                                                           veterans in obtaining and maintaining gainful
defined-contribution retirement plans, as well as
                                                           employment. Our audits have found that VETS
the large increase in the types and complexity of
                                                           needs to do a better job of ensuring that states
investment products available to pension plans.
                                                           are accurately assessing veterans’ needs and
In particular, employee benefit plans have been
                                                           documenting intensive service activities.
investing more assets in hard-to-value alternative
investments, such as real estate investment
trusts and hedge funds. With the lack of formal
regulatory guidance, as well as the prevalence of
limited-scope audits, retirement plan administrators
may not always have reliable information on the

                                                 Semiannual Report to Congress: October 1, 2013 — March 31, 2014   5
                                          Significant Concerns
	
	

Improving IT Investment Management                               We are also concerned that other significant IT
                                                                 investments were not always properly categorized
Ensuring the proper management over new                          to ensure they received the level of oversight that
multimillion-dollar information technology (IT)                  projects of their estimated cost should receive.
systems is also of concern to the OIG. For example,              The Department has several significant system
our reviews of the Department’s implementation                   development projects planned, including replacing
of cloud e-mail services and the migration of                    its accounting system. In addition to proper and
its human resources services identified several                  timely project management, having a separately
system readiness, vendor contract compliance,                    designated Chief Acquisition Officer whose primary
and information security issues that needed to                   responsibility is acquisition management would
be addressed before final implementation.                        help ensure issues involving contract planning and
                                                                 compliance are properly and promptly addressed.




6     Semiannual Report to Congress: October 1, 2013 — March 31, 2014
Employment and Training


      Programs


                            Employment and Training Programs



 Employment and Training Administration Programs

    The Department’s Employment and Training Administration (ETA) provides employment assistance, labor
 market information, and job training through the administration of programs authorized by the Workforce
 Investment Act of 1998 (WIA) for adults, youth, dislocated workers, and other targeted populations. WIA grant
 funds are allocated to state and local areas based on a formula distribution and through competitive grant
 awards to governmental and private entities.



Recovery Act: Outcomes from On-                                  We recommended that ETA require grantees
the-Job Training National Emergency                              to follow ETA guidance and ensure that OJT
                                                                 contracts are designed in compliance with the
Grants
                                                                 terms and conditions of the grant, including
                                                                 documentation requirements. We also
In our audit of the use of American Recovery
                                                                 recommended that ETA recover $362,267 in
and Reinvestment Act of 2009 (Recovery Act)
                                                                 questioned costs, as appropriate. ETA agreed
On-the-Job Training (OJT) National Emergency
                                                                 with the recommendations. To view the report,
Grant (NEG) funds, we found that grantees had
                                                                 including the scope, methodology, and full agency
sufficient internal controls in place to ensure that
                                                                 response, go to http://www.oig.dol.gov/public/
sub-grantees and service providers enrolled only
                                                                 reports/oa/2014/18-14-001-03-390.pdf (Report
eligible participants, and the entered employment
                                                                 Number 18-14-001-03-390, March 25, 2014).
and retention percentages achieved for the
long-term unemployed exceeded the agency’s
expectations. However, we identified improvements                Michigan Trio Sentenced for Misuse
that ETA needs to make to better ensure that                     of WIA Funding
grantees comply with policy requirements and
obtain adequate documentation to support                         Pamela Loving, former director of Career Alliance,
payments to OJT employers. The grants allowed for                 was sentenced on December 3, 2013, to
sub-grantees and service providers to develop and                five years’ probation for fraudulent use of
implement their own contracts with employers, but                WIA funds. QB Pittman, former chief financial
these contracts were not consistently designed and               officer of Career Alliance, was sentenced on
implemented according to guidelines established                  October 24, 2013, to one year of probation for
by ETA. This resulted in questioned costs totaling               her role in the scheme. Helen Williams, former
$86,754. In addition, service providers did not                  executive director of Flint Family Road, was
have proper controls in place to ensure that                     sentenced on October 17, 2013, to two years’
reimbursements were made in accordance with                      probation. Loving, Pittman, and Williams previously
the grant requirements and based on actual wages                 pled guilty to one count of misapplication of WIA
paid to participants. These instances of improper                funding. Loving was ordered to pay more than
payments resulted in questioned costs of $275,513.               $586,000 in restitution to Genesee/Shiawassee
                                                                 Michigan Works. Of the $586,000, Loving was


8     Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                           Employment and Training Programs



ordered to pay more than $240,000 jointly                    controlled by him. Harrison would then forge
and severally with Williams and more than                    the name of the payee, co-endorse the check,
$91,000 jointly and severally with Pittman.                  and deposit it into accounts under his control.

Under the direction of Loving, Career Alliance, a            This was a joint investigation with the U.S.
Michigan Works agency receiving WIA funding,                 Department of Housing and Urban Development-
distributed funds to programs not sanctioned                 OIG and the Columbus Police Department.
by ETA. Between July 2006 and May 2007,                      United States v. Ovell Harrison (S.D. Ohio)
Loving directed Pittman to misapply WIA funds
for training costs for individuals not associated
with Career Alliance and used WIA funds for her
personal expenses. Loving also devised a scheme
with Williams to provide funding to Flint Family
Road, an entity not eligible for WIA funding.

This was a joint investigation with the Federal
Bureau of Investigation. United States v. Pamela
Loving (E.D. Michigan)


Ohio Man Sentenced to 42 Months
in Prison for Identity Theft and Bank
Fraud Scheme

Ovell Harrison, former director of educational
services at the Columbus Urban League, was
sentenced on January 17, 2014, to three and a
half years in prison and ordered to pay $85,181
in restitution for his involvement in a scheme to
defraud the Columbus Urban League, a recipient
of WIA and other federal grant funds. Harrison
previously pled guilty to one count of bank fraud
and one count of aggravated identity theft.

From 2004 until December 2010, Harrison
used the personally identifiable information of
unsuspecting contractors to prepare and submit
false invoices to the Columbus Urban League.
The Columbus Urban League processed the
invoices and generated checks totaling $85,181
for payment of services, which were either left
for pick-up by Harrison or mailed to an address

                                                   Semiannual Report to Congress: October 1, 2013 — March 31, 2014   9
                             Employment and Training Programs




           Foreign Labor Certification Programs
    The Employment and Training Administration (ETA) administers a number of foreign labor certification
 programs that allow U.S. employers to employ foreign workers to meet American worker shortages. The
 H-1B visa specialty workers’ program requires employers that intend to employ foreign specialty-occupation
 workers on a temporary basis to file labor condition applications with ETA stating that appropriate wage
 rates will be paid and that workplace guidelines will be followed. The H-2B program establishes a means
 for U.S. nonagricultural employers to bring foreign workers into the United States to meet temporary worker
 shortages. The Permanent Foreign Labor Certification program allows an employer to hire a foreign worker
 to work permanently in the United States.



Colorado Business Owner Sentenced                                 instructors/supervisors for a local university,
to More Than 10 Years in Prison for                               which existed largely in name only. In reality, the
                                                                  workers were subcontracted by Kalu’s company
Human Trafficking and Foreign Labor
                                                                  to work as nurses at long-term care facilities.
Visa Fraud
                                                                  Kalu also required the foreign nationals to sign
Kizzy Kalu, a Colorado business owner, was
                                                                  a contract that imposed a $25,000 penalty
sentenced on February 11, 2014, to more than 10
                                                                  if they ceased working for his company,
years in prison for his role in an H-1B visa fraud
                                                                  and he threatened them with cancellation of
scheme, after having been found guilty of 89
                                                                  their H-1B visas if they stopped working.
counts of mail fraud, visa fraud, human trafficking,
and money laundering. Kalu’s co-defendant,
                                                                  This was a joint investigation with the U.S.
Philip Langerman, who previously pled guilty
                                                                  Department of State Diplomatic Security Service
for his role in the scheme, was sentenced to 3
                                                                  (DSS) and Immigration and Customs Enforcement
years’ probation. Kalu and Langerman were both
                                                                  Homeland Security Investigations (ICE-HSI).
also ordered to pay, jointly and severally, more
                                                                  United States v. Kizzy Kalu et al. (D. Colorado)
than $3.7 million in restitution to 27 victims.

From 2008 through 2010, Kalu recruited foreign
                                                                  North Carolina Businessman
nationals to serve as nursing instructors/                        Sentenced to Prison for H-1B Visa
supervisors at a local university through his                     Fraud
companies Foreign Healthcare Professional
Group and Advanced Education and Training for                     Phani Raju Bhima Raju, president of iFuturistics,
Foreign Healthcare Professionals Group, LLC.                      was sentenced on March 20, 2014, to four
Langerman then filed labor condition applications                 years in prison for his participation in a
with DOL on their behalf so the foreign nationals                 scheme to obtain fraudulent H-1B visas for
could obtain H-1B visas. Kalu told the foreign                    foreign workers. Raju was also ordered to
nationals that they would be working as nursing                   forfeit $1.5 million in criminal proceeds.


10     Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                           Employment and Training Programs



From 2006 to November 2012, Raju conspired with             A total of 298 H-2B visas were issued to these
others to fraudulently submit documents to DOL              applicants, even though a very small percentage of
and the United States Citizenship and Immigration           them actually worked in their intended occupation.
Services (USCIS) that falsely represented a need
to hire H-1B workers. Once the foreign nationals            This was a joint investigation with DSS and ICE-
were granted H-1B visas, they were either assigned          HSI. United States v. Devin Finke (S.D. Texas)
to work with various other companies throughout
the country or had to find their own employment.            New York Immigration Attorney
Some of the foreign nationals were also “benched”           Found Guilty of Visa Fraud at Trial
while waiting for another job assignment.
                                                            Anna Tsirlina, an immigration attorney who
This was a joint investigation with ICE-HSI and             operated the Law Office of Anna Tsirlina in New
USCIS Fraud Detection and National Security.                York, was found guilty on February 28, 2014, of visa
Assistance was also provided by the DOL                     fraud and conspiracy to commit visa fraud for her
Wage and Hour Division. United States v. Phani              role in a scheme to fraudulently obtain temporary
Raju Bhima Raju (W.D. North Carolina)                       and permanent work visas for her clients. Co-
                                                            conspirators Aleksandr Shusterman and Andrei
Texas CEO Sentenced for H-2B Visa                           Kurakin, who both worked with Tsirlina, pled guilty
Fraud Scheme                                                on February 18, 2014, for their roles in the scheme.


Devin Finke, former CEO of American International           From January 2005 until September 2012, Tsirlina
Labor Services (AILS), was sentenced on                     and her co-conspirators engaged in a scheme
October 25, 2013, to 18 months in prison and 2              to fraudulently obtain H-1B and permanent
years of supervised release for his involvement in a        employment-based visas for her clients by
foreign labor visa fraud scheme. Finke previously           submitting false documents to ETA and USCIS.
pled guilty to conspiracy to encourage and induce           Tsirlina helped prepare and submit applications and
illegal immigration.                                        supporting paperwork that falsely represented that
                                                            certain U.S. employers were seeking to fill specialty
From August 2006 through November 2009,                     jobs when no such employment existed. Several of
Finke operated AILS, a Houston-based company                the applications submitted by Tsirlina also contained
that advertised itself as primarily engaged in the          altered dates of entry into the United States for
procurement of visas for U.S. companies seeking to          the clients, falsely representing them as being in
hire foreign workers. Finke conspired with multiple         status at the time the applications were submitted.
companies seeking foreign labor and advised them
to request more workers than needed. On behalf              This was a joint investigation with ICE-HSI. United
of these companies, Finke submitted fraudulent              States v. Anna Tsirlina et al. (E.D. New York)
petitions inflating the number of foreign workers
needed under the H-2B visa program. With the
assistance of recruiters in Mexico, Fink also
charged each foreign national up to $2,500 for the
H-2B visa and transportation to the United States.

                                                  Semiannual Report to Congress: October 1, 2013 — March 31, 2014   11
                            Employment and Training Programs


Maryland Man Pleads Guilty to Visa
Fraud

Milen Radomirski, the employee of a pool
service company in Maryland, pled guilty on
February 19, 2014, to one count of visa
fraud for his role in a scheme that spanned
almost five years and involved foreign
nationals' acquiring H-2B visas.

Radomirski worked for a pool service company
that provided lifeguards and pool maintenance
services in the Washington, D.C., metropolitan
area. Radomirski’s responsibilities included
finding foreign workers the pool service company
could sponsor to work in the United States on
H-2B visas. Radomirski would charge foreign
nationals a fee in exchange for including them
on the company’s petitions for H-2B visas.
Additionally, it was understood between Radomirski
and many of the foreign nationals that some
of them would not work at the pool company,
would work for only a short period of time, or
would not work exclusively for the company.

This was a joint investigation with ICE-HSI and
DSS. United States v. Milen Radomirski
(D. Maryland)




12    Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                          Employment and Training Programs




   Veterans’ Employment and Training Service
    The mission of the Veterans’ Employment and Training Service (VETS) is to provide veterans with the
 resources and services to succeed in the 21st-century workforce by maximizing their employment opportunities,
 protecting their employment rights, and meeting labor market demands with qualified veterans. VETS offers
 employment and training services to eligible veterans through its Jobs for Veterans State Grants (JVSG)
 program. Under this grant program, funds are allocated to State Workforce Agencies in direct proportion to the
 number of veterans seeking employment within their states. The grants support two principal staff positions:
 Disabled Veterans Outreach Program (DVOP) specialists and local veterans employment representatives
 (LVERs). DVOP specialists primarily provide services to meet the employment needs of disabled veterans
 and other veterans prioritized by the Secretary of Labor. LVERs conduct outreach to employers and engage
 in advocacy efforts with hiring executives to increase employment opportunities for all veterans.



VETS’s Oversight of Florida’s Jobs                         impeded VETS’s ability to ensure that the JVSG
for Veterans State Grants Program                          program in Florida was operating as intended.

Needs to Be Strengthened
                                                           We recommended that VETS develop new JVSG
                                                           guidance requiring program specialists to identify
During our audit of the JVSG program operated
                                                           and document the veterans’ barriers and to use
by Florida’s Department of Economic Opportunity
                                                           the case management approach when providing
(DEO), we found that VETS did not ensure
                                                           intensive services. We also recommended that
that DEO’s JVSG staff adequately provided
                                                           VETS develop new procedures requiring the review
intensive services to meet the employment
                                                           of case notes and supporting intensive services
and training needs of eligible veterans, or that
                                                           documentation as part of monitoring activities
program measures were accurately reported.
                                                           and verification of state JVSG performance
Florida DEO’s JVSG program did not maintain
                                                           data. VETS agreed with the recommendations.
adequate documentation to support the
                                                           To view the report, including the scope,
services it provided, in part because VETS’s
                                                           methodology, and full agency response, go to
policies provided conflicting guidance on what
                                                           http://www.oig.dol.gov/public/reports/
constituted the provision of intensive services
                                                           oa/2014/06-14-001-02-001.pdf (Report Number
and did not define barriers to employment or
                                                           06-14-001-02-001, March 27, 2014).
specify documentation requirements. We also
found that VETS’s monitoring did not include
verifying the Florida DEO’s reported information
regarding services it provided, but instead relied
on JVSG staff self-assessments, staff interviews
during on-site reviews, and summary activity
data. These guidance and monitoring issues



                                                 Semiannual Report to Congress: October 1, 2013 — March 31, 2014   13
Worker Safety, Health, and


   Workplace Rights


                      Worker Safety, Health, and Workplace Rights




          Mine Safety and Health Administration
    The federal Mine Safety and Health Act of 1977 (Mine Act), as amended by the Mine Improvement and
 New Emergency Response Act of 2006 (MINER Act), charges the Mine Safety and Health Administration
 (MSHA) with setting standards to protect the health and safety of more than 350,000 men and women working
 in our nation’s mines.


MSHA Has Taken Steps to Detect and                                discipline measures for repeated reports of injuries,
Deter Underreporting of Accidents                                 which miners may perceive as disincentives
                                                                  to reporting injuries and illnesses because
and Occupational Injuries and
                                                                  of the potentially adverse consequences.
Illnesses, but More Action Is Still
Needed                                                            We recommended that MSHA develop and
                                                                  implement policy guidance on operator programs
During our audit of MSHA’s process for detecting
                                                                  for reporting work-related injuries or illnesses,
and deterring underreporting of injuries and
                                                                  addressing retaliation against miners for reporting
illnesses in the mining industry, we found that while
                                                                  and encouraging the reporting of work-related
MSHA has taken steps to identify underreporting
                                                                  injuries or illnesses. MSHA agreed with our
through its use of audits, inspections, and other
                                                                  recommendations. To view the report, including
nonaudit activities, the agency could do more
                                                                  the scope, methodology, and full agency
to strengthen this process. The agency needs
                                                                  response, go to http://www.oig.dol.gov/public/
to expand upon and enhance its knowledge of
                                                                  reports/oa/2014/05-14-001-06-001.pdf (Report
underreporting to better target agency efforts
                                                                  Number 05-14-001-06-001, March 31, 2014).
to identify which mines are the most likely to
underreport and which types of injuries are the
most likely to be underreported. To accomplish
this, we recommended that MSHA derive
better estimates of the overall prevalence,
magnitude, and distribution of underreporting.

We also found that MSHA needs to take more
action to encourage employers to create a
culture of reporting injuries and illnesses, and
to address retaliatory and injurious employer
practices. MSHA has not issued guidance on
mine operator practices that may discourage
miners from reporting injuries and illnesses.
Some mine operators have implemented a variety
of policies and practices, such as progressive


16     Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                    Worker Safety, Health, and Workplace Rights



    Occupational Safety and Health Administration
    The Occupational Safety and Health Administration (OSHA) was established by the Occupational Safety
 and Health Act of 1970 (OSH Act). OSHA’s mission is to ensure that every working man and woman in the
 American has safe and healthy working conditions. OSHA does this by setting and enforcing workplace safety
 and health standards; providing training, outreach, and education; and encouraging continuous improvement
 in workplace safety and health.

Voluntary Protection Program:                                leaving the program as well as its determinations
Controls Are Not Sufficient to Ensure                       of when to reevaluate employers. OSHA could not
                                                            identify the universe of employers or applicants
That Only Worksites with Exemplary
                                                            because it tracked VPP data in at least 11 different
Safety and Health Systems Remain in
                                                            databases that were not reconciled. OSHA also did
the Program                                                 not ensure that the injury and illness data it used for
                                                            reevaluating VPP eligibility and reporting on overall
OSHA’s evaluation processes and monitoring
                                                            program successes were reliable. Finally, OSHA
controls could not ensure that its Voluntary
                                                            did not use inspections as an opportunity to identify
Protection Program (VPP) consists of only
                                                            potential weaknesses in VPP operations and
employers with exemplary safety and health
                                                            policies in order to make program improvements.
systems. Once approved for the VPP, employers
are exempt from OSHA’s programmed
                                                            We recommended that OSHA use a single
inspections as long as they comply with program
                                                            database of VPP employers or ensure that VPP
requirements and maintain exemplary systems.
                                                            databases are reconciled, adopt procedures
                                                            to ensure the reliability of injury and illness
Our analysis of 1,834 employers found that 13
                                                            data, and establish a system to analyze
percent had injury and illness rates above industry
                                                            inspection information for continuous program
averages or were cited with violations of safety
                                                            improvement. OSHA agreed to take action on the
and health standards, but most of these employers
                                                            recommendations and acknowledged that there
were allowed to remain in the VPP. OSHA policy
                                                            remain some deficiencies and inconsistencies in
currently allows employers with such records
                                                            the management of the VPP program. However,
to remain in the program for up to 6 additional
                                                            OSHA emphasized that it followed its policies
years, raising serious questions as to whether the
                                                            and procedures for implementing VPP and that
companies were fully protecting their workers. We
                                                            the vast majority of the sites in the program
recommended that OSHA reevaluate the policy,
                                                            have exemplary safety and health management
ensure that all VPP employers are reevaluated
                                                            systems. OSHA also disagreed with the 13 percent
timely, and monitor sites with injury and illness
                                                            statistic. To view the report, including the scope,
rates that are higher than industry average or those
                                                            methodology, and full agency response, go to
with fatalities or enforcement actions to ensure
                                                            http://www.oig.dol.gov/public/reports/oa/2014/02-
that such employers qualify for VPP status.
                                                            14-201-10-105.pdf (Report Number 02-
                                                            14-201-10-105, December 16, 2013).
We also found that OSHA had data reliability issues
that impacted its tracking of employers entering and
                                                  Semiannual Report to Congress: October 1, 2013 — March 31, 2014   17
                      Worker Safety, Health, and Workplace Rights

                           Wage and Hour Programs
    The Wage and Hour Division (WHD) is responsible for enforcing labor laws, such as those that cover
 minimum wage and overtime pay, child labor, record keeping, family and medical leave, and migrant workers,
 among others. Additionally, WHD administers and enforces the prevailing wage requirements of the Davis-
 Bacon Act and other statutes applicable to federal contracts for construction and the provision of goods and
 services. The Davis-Bacon Act and related acts require the payment of prevailing wage rates and fringe
 benefits on federally financed or assisted construction.

Two Defendants Found Guilty of                                    This was a joint investigation with the U.S.
Falsifying Payroll Records                                        Environmental Protection Agency – Criminal
                                                                  Investigation Division and New York City
Jover Naranjo, the owner and president of Enviro                  Housing and Preservation Development. United
& Demo Masters, Inc., and Luperio Naranjo                         States v. Naranjo et al. (S.D. New York)
Sr., a foreman for Enviro & Demo Masters, Inc.,
were found guilty on November 22, 2013, for                       Illinois Trucking Company Owner
their roles in falsifying certified payroll records               Sentenced for Making False
on a federally funded contract. Specifically,                     Statements on Payroll Certifications
they were found guilty of mail fraud, conspiracy
to commit mail fraud, witness tampering,                          William Clark, owner of Clark Trucking and
conspiracy to commit witness tampering, and                       Excavation, LLC, was sentenced on
aggravated identity theft. Jover Naranjo was                      January 24, 2014, to 33 months in prison for
also found guilty of making false statements.                     making false statements on certified payrolls
                                                                  after being convicted by a jury of 10 counts of
In August 2009, Enviro & Demo Masters, Inc., a                    making false statements on certified payrolls.
demolition company, was awarded a subcontract                     Clark was also ordered to pay more than
to demolish five buildings in the New York City                   $273,000 in restitution to his truck drivers.
area. From August 2009 until February 2010, both
defendants participated in a scheme to submit                     Clark Trucking received $1.6 million to provide
30 weekly certified payroll reports fraudulently                  hauling services on a federally funded construction
claiming that their workers were paid prevailing                  project. As a subcontractor, Clark Trucking was
wage rates as stipulated in the contract, when in                 required to comply with the provisions of the Davis-
reality the workers were paid far less. To cover                  Bacon and related acts and to pay its employees
up the scheme, the defendants hid workers                         the prevailing wage rate. Our investigation revealed
from investigators and told some to lie about                     that from August to October 2009, Clark paid
their identities, work schedules, and pay rates if                employees anywhere from $13 to $15 per hour,
questioned by investigators. As a result of their                 rather than the required prevailing wage of $35.45
scheme, Jover Naranjo and Luperio Naranjo Sr.                     per hour. Clark also signed a sworn affidavit falsely
derpaid their employees by more than $650,000.                    claiming that Clark Trucking had complied with
                                                                  labor laws regarding payment of prevailing wages.
                                                                  United States v. William Clark (S.D. Illinois)
18     Semiannual Report to Congress: October 1, 2013 — March 31, 2014
Worker and Retiree


Benefit Programs
	
	
                           Worker and Retiree Benefit Programs
	
	

            Unemployment Insurance Programs
     Enacted more than 80 years ago as a federal-state partnership, the Unemployment Insurance (UI) program
 is the Department’s largest income-maintenance program. This multibillion-dollar program assists individuals
 who are unemployed due to lack of suitable work. While the framework of the program is determined by
 federal law, the benefits for individuals are dependent on state law and are administered by State Workforce
 Agencies (SWAs) in 53 jurisdictions covering the 50 states, the District of Columbia, Puerto Rico, and the
 U.S. Virgin Islands, under the oversight of the Employment and Training Administration (ETA).

Controls over the Release of the                                 implement a strategy to achieve an equitable
UI Weekly Claims Report Need                                     release of the Claims Report and eliminate any
                                                                 competitive advantage that news organizations
Improvement
                                                                 inside the lock-up and their clients may have or,
                                                                 absent a viable solution, consider discontinuing
During an audit to determine whether ETA
                                                                 the use of the press lock-up to provide news
adequately protected the UI Weekly Claims Report
                                                                 organizations pre-release access to the Claims
(Claims Report) from premature release, we found
                                                                 Report. We made the same recommendation
that ETA’s use of an optional press lock-up to
                                                                 to the Commissioner of the Bureau of Labor
provide pre-release access to news organizations
                                                                 Statistics (BLS), as that agency also uses a
may have provided a competitive advantage to
                                                                 lock-up to disseminate embargoed economic
them and/or their clients. The Claims Report is
                                                                 data, such as the Consumer Price Index.
embargoed until its scheduled release time of
8:30 a.m. every Thursday. ETA uses a press lock-
                                                                 We also found other areas where ETA needs to
up to provide news organizations an opportunity to
                                                                 improve controls to adequately protect the Claims
review the report and prepare their news stories 30
                                                                 Report during the embargo. Specifically, ETA
minutes immediately prior to the report’s release
                                                                 needs to strengthen (and in some cases develop)
time. News organizations also use this time to
                                                                 written policies and procedures for the Claims
prepare the embargoed data for transmission
                                                                 Report release process, including testing the file
directly to their clients (who use this information
                                                                 delivery system and posting the data to the Internet,
for securities trading) once the embargo is lifted.
                                                                 encrypting the data, strengthening the agency’s
However, the process of uploading the data to
                                                                 confidentiality policy to cover unauthorized use,
the Department’s public websites can take up
                                                                 requiring all personnel with pre-release access
to five minutes to complete after the embargo
                                                                 to sign confidentiality affidavits, and periodically
is lifted. Those news organizations with pre-
                                                                 reviewing affidavits to ensure that the agency’s
release access can get the data to their clients
                                                                 records are current and accurate. ETA and BLS
instantaneously, enabling them to make market
                                                                 generally agreed with our recommendations.
trading decisions sooner than the general public.
                                                                 To view the report, including the scope,
                                                                 methodology, and full agency response, go to
We recommended that ETA consult with OMB and
                                                                 http://www.oig.dol.gov/public/reports/
other federal agencies that provide pre-release
                                                                 oa/2014/17-14-001-03-315.pdf (Report Number
access via press lock-ups to develop and
                                                                 17-14-001-03-315, January 2, 2014).
20    Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                         Worker and Retiree Benefit Programs
	
	

Nevada Woman Sentenced for                                  numerous fraudulent UI claims with the Texas
Fictitious Employer Scheme                                  Workforce Commission (TWC). As part of this
                                                            scheme, Hinojosa would provide fictitious employer,
Teresa Towns was sentenced on                               job, employment date, and wage information to
January 27, 2014, to 57 months in prison                    TWC. Once the UI claims were received by TWC,
and ordered to pay more than $477,000 in                    a Notice of Application for Unemployment Benefits
restitution for stealing from the UI system,                was sent to the address controlled by Hinojosa
the public housing authority, and the Social                to verify that the claimant actually worked for the
Security Administration (SSA). Towns previously             employer. Hinojosa would then fraudulently respond
pled guilty to theft of government money.                   as the employer. As a result, Hinojosa collected
                                                            approximately $1 million in fraudulent UI benefits.
Between 2005 and 2013, Towns established
multiple business entities in Nevada and submitted          This is a joint investigation with the FBI and TWC.
false wage reports for fictitious employees                 United States v. Sergio Hinojosa (S.D. Texas)
to the Nevada Department of Employment,
Training and Rehabilitation (DETR). Towns filed             Texas Woman Pleads Guilty to
fictitious UI claims with DETR using aliases.               Unemployment Insurance Fictitious
UI benefits were disbursed on debit cards in                Employer Scheme
the names of the fictitious employees and
sent to addresses accessible to Towns. Towns                Andrea Brooks, a hospital employee, pled
then used the debit cards to obtain cash from               guilty on November 22, 2013, to aggravated
ATMs. As a result, Towns received more than                 identity theft and mail fraud after orchestrating
$322,000 in fraudulent UI benefits, of which                a UI fictitious employer scheme.
at least $170,000 was federally funded.
                                                            While employed at a hospital in San Antonio,
This was a joint investigation with SSA-                    Texas, Brooks fraudulently obtained the personally
OIG, the U.S. Department of Housing and                     identifiable information of certain patients.
Urban Development–OIG, and DETR. United                     Brooks and others then submitted numerous
States v. Teresa Towns (D. Nevada)                          fraudulent UI claims to the TWC. Brooks and her
                                                            co-conspirators received and used numerous
Texas Man Pleads Guilty to $1 Million                       preloaded UI debit cards to collect the benefits.
Fictitious Employer Scheme                                  As a result of the scheme, the TWC paid
                                                            approximately $265,000 in fraudulent UI benefits.
Sergio Hinojosa pled guilty on November 19, 2013,
 to mail fraud and aiding and abetting for his              This is a joint investigation with the United
 involvement in a fictitious employer scheme to             States Postal Inspection Service and the
fraudulently obtain approximately $1 million in UI          San Antonio Police Department. United
benefits.                                                   States v. Andrea Brooks (W.D. Texas)


From August 2012 until May 2013, Hinojosa, along
with others, carried out a fraud scheme by filing

                                                  Semiannual Report to Congress: October 1, 2013 — March 31, 2014   21
                            Worker and Retiree Benefit Programs
	
	

North Carolina State Employee		                                   From October 2010 through May 2011, Lee used
Pleads Guilty to Theft of Federal                                 her position as a tax auditor with the Employment
                                                                  Security Commission of North Carolina (ESCNC)
Funds
                                                                  to take more than $18,000 in cash payments
                                                                  from employers seeking to pay their UI taxes to
Sheila Lee, a former state tax auditor in North
                                                                  the state. Lee also issued the employers false
Carolina, pled guilty on February 6, 2014,
                                                                  receipts for payment and failed to report the
to theft or bribery concerning programs
                                                                  payments in the state tax accounting system.
receiving federal funds, after embezzling
more than $18,000 in UI tax payments.
                                                                  This was a joint investigation with ESCNC. United
                                                                  States v. Sheila Lee (M.D. North Carolina)



                              Employee Benefit Plans
    The Department’s Employee Benefits Security Administration (EBSA) is responsible for protecting the
 security of retirement, health, and other private-sector employer-sponsored benefit plans for America’s workers'
 and retirees, and their families. EBSA is charged with protecting about 141 million workers, retirees, and who
 family members are covered by nearly 684,000 private retirement plans, 2.4 million health plans, and similar
 numbers of other welfare benefit plans that together hold estimated assets of $7.8 trillion.


EBSA Could Improve Its Use of Form                                In our audit of EBSA’s administration of Form 5500
5500 Data                                                         we found that the agency’s compliance activities
                                                                  related to Form 5500 generally ensured that plan
Employee benefit plans use the Form 5500                          administrators met ERISA reporting requirements.
Series forms to satisfy annual reporting
requirements under Title I and Title IV of the                    Our audit identified areas where EBSA could
Employee Retirement Income Security Act of                        improve its Form 5500 enforcement activities.
1974 (ERISA) and under the Internal Revenue                       Specifically, EBSA’s Office of the Chief Accountant
Code. The Form 5500 Series is part of ERISA’s                     (OCA), which enforces ERISA’s reporting and
overall reporting and disclosure framework,                       disclosure provisions by targeting deficient
which is intended to ensure that employee                         Form 5500 filings and initiating cases against
benefit plans are operated and managed in                         plan administrators to make corrections, could
accordance with certain prescribed standards                      supplement its current targeting strategies
and that participants and beneficiaries, as well as               with analysis of changing violation patterns.
regulators, have access to sufficient information                 In addition, EBSA’s Office of Enforcement
to protect the rights and benefits of participants                could improve the targeting of its ERISA
and beneficiaries under employee benefit plans.                   investigative activities with increased access
                                                                  to certain data elements in Form 5500.



22     Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                                             Worker and Retiree Benefit Programs
	
	

We recommended that EBSA include deficiency                                                                                                          the ERISA Filing Acceptance System’s public
trends identified by Form 5500 data as a                                                                                                             search function by making searches more user
component of a multipronged approach to                                                                                                              friendly and by building logic into the search
determining OCA’s case mix; determine                                                                                                                algorithms. EBSA generally agreed with the
which Form 5500 data items are not currently                                                                                                         recommendations. To view the report, including
searchable and add appropriate data fields to                                                                                                        the scope, methodology, and full agency
allow mining of this data; maintain a form for                                                                                                       response, go to http://www.oig.dol.gov/public/
tracking change proposals for Form 5500, along                                                                                                       reports/oa/2014/05-14-003-12-121.pdf (Report
with their ultimate disposition; and improve                                                                                                         Number 05-14-003-12-121, March 31, 2014).




                                                                                                                                                                                                                         -0110
                                                                                                                                                                                                                 os. 1210 -0089
                                                                                                                                                                                                           OMB N     1210

                                                                                                                             t Plan
                                                                                                                    Benefi                                                                               2013
                                                                                              f E   m  p loyee nder sections 1) 0a4nd
                                                                                 eport o                           ns u        RISA
                                                                                                          nefit pla     974 (E
                                                                        turn/R ed for employeeebSeecurity Act onfu1e Code (the Cod
                                                                                                                                    e).
                                                                 a l Re                                                                                                                                       to Pub
                                                                                                                                                                                                                                   lic
                                                             Annu required to be filetirement Incothme Internal Reve                                                                              orm is
                                                                                                                                                                                                         Open
                                                                      rm is       yee R             ) of                                                                                    This F Inspection
                       50               0                     This fo of the Emplo ), and 6058(a                      ce with
                                                                                                                cordan 0 .
                Form 5                                              n
                                                                     65
                                                             and 40 6047(e), 605
                                                                     s
                                                                                 7(b
                                                                                          te a
                                                                                                         s in ac
                                                                                              ll e ie the Form 5
                                                                                                  n tr               50
                                                             sect io                  p le             to
                                                                               Com instructions
                                             sury
                                    e Trea e
                         ent of th         rvic
              Departm Revenue Se
                        al
                                                                                   the
                     rn
               In te
                                           bor                                                                                                              ding
                                ent of La
                   Departm nefits Secu
                                                rity                                                                                                and en
                           ee Be                                                                                                                           lan; or
               Employ ministration                                                         on                                                       loyer p
                                                                                    formati                                                    -em p
                           Ad                         tion                                                                                  ple
                                            y Corpora
                                                                       on In g                                                     Xa multi                _C_
                                                           tificati
                                      ra nt
                             fit Gua                                                                                                                 )
            Pensio
                   n Bene
                                                rt Iden lan year beginn loyer plan;
                                                                                    in                                                       (specify
                                    R  e  p o                                                                                       Xa DFE
                     A n nual 013 or fiscal                p
                                                                    X a     m ulti emp                                                                                                                            onths).
         Part I dar plan year 2                                                                          plan;                                                  /report
                                                                                                                                                                             ;                       an 12 m
                                                                                         m  ployer                                                   l return                              (less th
                                                                                                                                                                                                                  . X
                                                                                   le -e
         For ca
               len
                                    is  for:                         X    a sin g
                                                                                                                                      X   the fina                      re  tu rn /report                    . .
                  return/r
                           eport                                                                                                                   rt plan
                                                                                                                                                              year                                 ......                             gram;
                                                                                                              ;
                                                                                                                                       X a sho                                          ......                   the DF
                                                                                                                                                                                                                            VC pro
          A This                                                                        re tu rn  /report
                                                                                                                                                                   .  . . .  . ......                      X
                                                                       X the fir
                                                                                     st
                                                                                                                 p o rt;                                . . . ..
                                                                                                                                                                                                                           B C  D  E
                                                                                                                                                                                                                HI A
                                                                                                             /r e                              ...  . .
                                                                                                  return                            ......
                                                                                       ended                             ......                                    ension
                                                                                                                                                                               ;
                                                                                                                                                                                                    CDEFG
                                                                        X an am                              ......                                    atic ext                         HI AB
                         rn /report
                                       is:
                                                                                               ......                                    X autom
                                                                                                                                                               I       A  B  CDEFG                                                         plan            001
           B This
                    retu
                                                                             check
                                                                                        h e re
                                                                                                                                                        FGH                                                                      e-digit 
                                                        argaine
                                                                  d plan,
                                                                                                                                ription)
                                                                                                                                           ABCDE                                                                   1b Thre           r (PN)
                                                   ly-b                                  5558;                            e  sc                                                                                            numbe                    f plan
                                 a colle
                                            ct ive                         X  F o  rm
                                                                                                    nsion (e
                                                                                                                  nte  r d
                                                                                                                                                                                                                                  ctive d
                                                                                                                                                                                                                                           a  te  o
                                                                                                                                   LE

             C If the
                       plan is                                                           al exte
                                                                                                                        formatio
                                                                                                                                    n                                               DEFGH
                                                                                                                                                                                                I                   1c Effe Y-MM-DD
                                            under:                          X speci                        ested in                                                     I ABC EFGHI                                         YYY                              n
                             x  if filing                                                              q u                                                 E  F G  H                                                                              ntificatio
                          bo                                                                   ll re                                                 CD                              D                                                 yer Ide
                                                                                                                                         HI AB DEFGHI ABC
                                                                                           ra
              D Check                                                  a tio n—ente                                               E F  G                                                                              2  b   Emplo              IN )
                                                             form                                                       ABC    D                   BC                                                                                  e r (E
                                                 Plan In                                                  FGHI BCDEFGHI A                                                                                                     Numb
                                                                                                                                                                                                                                            5678
                                   Basic                                                   ABCDE                         A                                                  loyer p
                                                                                                                                                                                     lan)                                      01234
                  Part II                                       A  B  C D  EFGHI ABCDEFGHI                                                              si ng le-emp                                                                  n so r’s telep
                                                                                                                                                                                                                                                        hone
                                                     FGHI
                                       n                                                                                                            a
                           e of pla                                             GHI                                                          if for                                                                      2c Spomber
                1a Nam GHI ABCDE GHI ABCDEF                                                                                  (em   ployer,
                                                                                                                                                                                                  HI                                           56789
                                                                                                                       b e r                                                                                                    n  u
                           F
                 ABCDE GHI ABCDEF                                                                          ite num                                                                    CDEFG                                      01234
                                                                                            om or su                                                                      HI AB                                                                       de (see
                 ABCDE
                            F                                          ss; incl
                                                                                ude ro                                                                     CDEFG CDEFGHI                                                                 ness co
                                                                                                      MP



                                                                dd  re                                                                        H  I   A  B                  B                                                       B usi
                                                      e and   a
                                                                                                                                  C D  E FG                 G H  I      A                                                  2 d                 io ns)
                                           r’s  n am
                                                                                                                        I A    B                   DEF                                                  FGHI                       inst ru ct
                   2a Plan
                               sponso                                                                     DEFGH DEFGHI ABC                                                                    ABCDE                                 01234
                                                                                                                                                                                                                                                  5
                                                                                           I ABC                                                                                  FGHI
                                                                      A B  C DEFGH DEFGHI ABC                                                           G  H  I    ABCDE
                                                     D E  F G HI                I     A  B  C                                              B  C  D E F
                                             ABC             ABCDE
                                                                          FGH                                                     HI A
                               FGHI                                                                                  CDEFG
                    ABCDE ABCDEFGHI                                                                    HI AB
                       / B  / A                                              I    A   B CDEFG CDE
                     D                                                     H                             B
                                  FGHI                        CDEFG                      GHI A                                                                                                                                   blishe
                                                                                                                                                                                                                                           d                     hedule
                                                                                                                                                                                                                                                                           s,
                     ABCDE CDEFGHI AB HI ABCDEF HI ABCDE                                                                                                                                                  cause
                                                                                                                                                                                                                      is esta               ompan
                                                                                                                                                                                                                                                       ying sc mplete.
                                   B                           G                          G                             901                                                                                                    ding acc correct, and
                                                                                                                                                                                                                                                                co
                      c/o A 789 ABCDEF HI ABCDEF 012345678                                                                                                                           ss  re a sonable
                                                                                                                                                                                                                port   , incl u
                                                                                                                                                                                                                                       ue,
                                    6                           G                                                                                                         ed unle                     turn/re               f, it is tr
                       12345 789 ABCDEF HI AB, ST                                                                                                           assess                         d this re dge and belie
                                                                            SA




                                     6                          G                                                                               will be                           xamine
                        12345 GHI ABCDEF                                                                                      tu  rn /report                th a t  I  have e of my knowle
                                                                                                                                                                                                                                                          HI AB
                                                                                                                                                                                                                                                                      CDE
                        CITYE
                                      F
                                                                                                      filing of
                                                                                                                   this re
                                                                                                                                      io
                                                                                                                                                   clare
                                                                                                                                         ns, I de ort, and to th
                                                                                                                                                                            e best
                                                                                                                                                                                                                                   I   A  B CDEFG
                                                                                        mp   le te                       e inst  ruct
                                                                                                                                                /rep                                                                       FG   H                             tra to r
                         UK                                                 or inco                         rth in th               is return                                                               ABCDE                                   adminis
                                                                 e late                        s set fo version of th                                                                            FGHI                        gning a
                                                                                                                                                                                                                                        s plan
                                              penalt
                                                       y for th                      enaltie
                                                                          other p the electron
                                                                                                              ic
                                                                                                                                                                            D  D     ABCDE                         idual si
                                                                                                                                                                                                                                                                    ABCDE
                                        : A                            d                                                                                                 -                                  d  iv
                                    o n                            a n                                                                                            MM                            ame o   f in
                           Cauti                          erjury
                                                 es of p ments, as w
                                                                               ell as                                                               YYYY -                            Enter n                                                           FGHI
                                       penalti
                            Under nts and attach                                                                                                                                                                                G  H I     ABCDE                      n spon
                                                                                                                                                                                                                                                                              sor
                                                                                                                                                                                                                              F
                                                                                                                                                                                                                ABCDE
                                       e                                                                                                             Date                                                                                                  r or p  la
                            statem                                                                                                                                                                    G H I                                     employe
                                                                                                                                                                                                    F                                     a s
                                                                                                                                                                                        ABCDE                                      nin g
                                                                                                                                                                                                                         ual sig
                                                                                                                                                                       MM -DD                      ame of
                                                                                                                                                                                                             individ
                                                                                                                                                                                                                                                                       ABCDE
                                                                                                                                                        YYYY -
                                                                                                 r
                                                                                      istrato                                                                                            Enter n                                                           FGHI
                                                                            admin
                               SIGN
                                        E                   re of   p la n
                                                                                                                                                                                                                                    G H I     ABCDE
                                     R                   tu                                                                                                                                                                      F
                                                                                                                                                                                                                    ABCDE
                               H   E             Sign  a                                                                                                Date
                                                                                                                                                                                                      FGHI                                            FE
                                                                                                                                                                                                                                          g as D hone numbe
                                                                                                                                                                                                                                                                           r
                                                                                                                                                                                   D D     ABCDE                               l signin
                                                                                                                                                                                                                     dividua reparer’s tele
                                                                                                                                                                                                                                                        p
                                                                                            n sp     o  n s o  r
                                                                                                                                                                    Y-    M   M -                         e o  f  in             P
                                          N                                          r/ p la                                                               Y  Y Y                             n ter n am                                    a  l)
                                   SIG                                   mploye                                                                                                             E
                                                                                                                                                                                                    nal)                          (option
                                   HERE                       re of e                                                                                                                     r. (optio CDEFGHI
                                                   Signatu                                                                                                  Date                 numbe
                                                                                                                                                              m   o  r suite           E F G  H I AB FGHI
                                                                                                                                                      e ro  o
                                                                                                                                                                              ABCD                     CDE
                                                                                                                               address
                                                                                                                                           ; includ           FGHI CDEFGHI AB CDEFGHI
                                                                                                                    le) and                      ABCDE                                                  B
                                       SIGN                             f D FE                     if  a pplicab          B  C D  E FGHI CDEFGHI AB CDEFGHI A DEFGHI
                                                                      o                       e ,                       A                         B                            AB                      BC
                                                                                        nam
                                                                                                        EFGHI BCDEFGHI A BCDEFGHI CDEFGHI A CDEFGHI
                                       HERE                      re
                                                      Signatu cluding firm                    B C   D
                                                                   n                       A                                                      A                             B
                                                                           EFGHI ABCDEFGHIA BCDEFGHI CDEFGHI A CDEFGHI AB DEFGHI
                                                              e (i                                                                                                                                                                                                                   013)
                                                    r’s nam                                                                                                                                                                                                                    500 (2
                                        Prepare GHI ABCD                                                                                                                                                                                                               Form 5 8
                                                      F                         GHI                            GHI A                      GHIAB                           I AB                   I ABC
                                         ABCDE GHI ABCDEF HI ABCDEF HI ABCDEF I ABCDEFGH IABCDEFGH                                                                                                                                                                     v . 130
                                                                                                                                                                                                                                                                              11
                                                      F                          G                               G                         H                              H
                                          ABCDE GHI ABCDEF HI ABCDEF I ABCDEFG I ABCDEFG                                                                                                                  5500 .
                                                       F                           G                              H                        GH
                                          ABCDE GHI ABCDEF HI ABCDEFG HI Semiannual                                           BCDEF                                                             r Form
                                           A  B  C D  E F
                                                                     B  C  D E F  G
                                                                                     GHI A
                                                                                                   B   C D  E   F G         A                             Report       e  in  sto
                                                                                                                                                                                trucCongress:
                                                                                                                                                                                     tions fo               October 1, 2013 — March 31, 2014                                                23
                                                        FGHI A                                                                                          , see th
                                            ABCDE GHI ABCDEF HI                                                           B Con
                                                                                                                                    tr ol N u mbers
                                                         F                            G
                                             ABCDE GHI ABCDEF                                  Notice
                                                                                                             and OM
                                                          F                        on Act
                                              ABCDE                      educti
                           Worker and Retiree Benefit Programs
	
	


     Office of Workers’ Compensation Programs
    The Office of Workers’ Compensation Programs (OWCP) administers four workers’ compensation programs:
 the Energy Employees Occupational Illness Compensation Program , the Federal Employees’ Compensation
 Act (FECA) program, the Longshore and Harbor Workers’ Compensation Act program, and the Coal Mine
 Workers’ Compensation program.



  Federal Employees’ Compensation Act Program
   The FECA program provides workers’ compensation coverage to approximately 2.8 million federal,
 postal, and certain other employees for work-related injuries and illnesses. Benefits include wage loss
 benefits, medical benefits, vocational rehabilitation benefits, and survivors’ benefits for covered employees’
 employment-related deaths. In FY 2013, the FECA program made nearly $3 billion in wage loss compensation
 payments to claimants and processed approximately 18,000 initial wage loss claims. At the end of FY 2013,
 nearly 50,000 claimants were receiving regular monthly wage loss compensation payments.


Military Nurse Sentenced after                                   Former Chicago TSA Employee
Falsifying FECA Forms                                            Sentenced after Defrauding
                                                                 OWCP for Travel Costs to
Nancy Threatt-Leonardo, a former United States                   Medical Appointments
Army military nurse, was sentenced on
March 12, 2014, to one year in prison after                      Donald Bayless, a former security officer with the
defrauding OWCP for nearly 11 years.                             Transportation Security Administration (TSA),
She was also ordered to pay restitution                          was sentenced on November 7, 2013, to 15
of more than $192,000 to OWCP.                                   months in prison and ordered to pay restitution
                                                                 of more than $73,000 to OWCP for submitting
After sustaining an on-the-job injury in 1998,                   fraudulent medical travel refund requests. Bayless
Threatt-Leonardo began receiving FECA                            previously pled guilty to 1 count of mail fraud.
benefits from OWCP. From June 2000 through
October 2011, Threatt-Leonardo continually                       Bayless fraudulently claimed reimbursement for
submitted false claims for medical and travel                    transportation costs that he did not incur for medical
costs that she never incurred. Threatt-Leonardo                  and rehabilitation appointments he did not attend.
also provided OWCP with fraudulent medical                       He also claimed reimbursement for inflated travel
documents that contained forged signatures                       costs for appointments that he actually attended.
describing medical treatments she never received.                From August 2005 through April 2009, Bayless
As a result, she collected more than $192,000 in                 submitted approximately 160 fraudulent medical
FECA benefits to which she was not entitled.                     travel refund requests, falsely claiming he had
                                                                 incurred more than $73,000 in medically related
United States v. Nancy Threatt-Leonardo                          travel expenses. This was a joint investigation with
(E.D. North Carolina)                                            TSA. United States v. Donald Bayless (N.D. Illinois)
24    Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                          Worker and Retiree Benefit Programs
	
	
Dallas Psychologist Pleads Guilty to                          VA Employee Pleads Guilty to
FECA Overbilling Scheme                                       Defrauding OWCP

Texas psychologist Michael Wolf pled guilty                   Loretta Smith, a former VA employee, pled guilty on
on January 22, 2014, to health care fraud for                 February 26, 2014, to two counts of mail fraud
fraudulently billing OWCP more than $1 million.               after fraudulently obtaining more than $460,000
From January 2008 through mid-2013, Wolf                      in FECA benefits. In July 2009, after an on-the-job
filed claims to receive payment for services                  injury, Smith began receiving federal employees’
never rendered on behalf of an injured federal                compensation for lost wages and medical and
worker covered under FECA. Wolf claimed he                    mileage expenses. From July 2009 through
provided psychotherapy to this patient seven                  February 2013, Smith submitted nearly 200 false
days a week, when he actually saw the patient                 worker’s compensation claims to OWCP for
only once or twice a week. He also submitted                  travel and medical costs that she did not incur.
false reimbursement claims for therapy sessions               As a result of this scheme, Smith received more
lasting almost eight hours, and for therapy given             than $460,000 to which she was not entitled.
on Christmas, Thanksgiving, and Sundays.                      This was a joint investigation with VA-OIG.
                                                              United States v. Loretta Smith (S.D. Georgia)
This was a joint investigation with USPS-OIG.
United States v. Michael Wolf (N.D. Texas)
                                                              Maryland Physician Pleads Guilty to
                                                              Health Care Fraud
Texas Nurse Pleads Guilty to False                            Maryland physician George Mathews, M.D.,
Statements                                                    pled guilty on February 7, 2014, to distribution
                                                              of controlled dangerous substances and health
Shirley Lankford, a licensed vocational nurse with
                                                              care fraud for fraudulently billing OWCP and
the Veterans Affairs Medical Center, pled guilty
                                                              other health care programs. From January 2007
on February 11, 2014, to making false statements
                                                              through July 2011, Mathews devised a scheme to
to OWCP for failing to disclose her outside
                                                              defraud OWCP and other health care providers
employment while receiving FECA benefits.
                                                              by billing for services that were not rendered
                                                              or medically necessary, including prescribing
Lankford began receiving federal employees’
                                                              schedule II controlled substances to patients who
compensation in November 2007, after an on-
                                                              did not need them. Mathews typically inflated the
the-job injury. From November 2007 through
                                                              amount of time he spent with a patient to indicate
April 2011, Lankford failed to disclose to
                                                              that he conducted a 25-minute physical exam
OWCP that she earned income working for
                                                              when the visit lasted no more than 5 minutes
several health care providers. As a result,
                                                              and did not involve a physical exam. As a result
Lankford received more than $98,000 in FECA
                                                              of this scheme, Mathews defrauded OWCP and
benefits to which she was not entitled.
                                                              other health care programs of at least $615,000.

This was a joint investigation with the                       This was a joint investigation with the Drug
Department of Veterans Affairs (VA)–OIG.                      Enforcement Administration and the United
United States v. Shirley Lankford (N.D. Texas)                States Postal Service (USPS)–OIG. United
                                                              States v. George Mathews, M.D. (D. Maryland)

                                                    Semiannual Report to Congress: October 1, 2013 — March 31, 2014   25
Labor Racketeering


                                   Labor Racketeering
    The OIG at DOL has a programmatic responsibility to investigate labor racketeering and/or organized
 crime influence involving unions, employee benefit plans, and labor-management relations. The Inspector
 General Act of 1978 transferred responsibility for labor racketeering and organized crime–related investigations
 from the Department to the OIG. In doing so, Congress recognized the need to place the labor racketeering
 investigative function in an independent law enforcement office free from political interference and competing
 priorities. Since then, OIG special agents, working in association with the Department of Justice’s Organized
 Crime and Gang Section, as well as various U.S. Attorneys’ Offices, have conducted criminal investigations
 to combat labor racketeering in all its forms.



Labor racketeering relates to the infiltration, exploitation, and/or control of a union, employee benefit plan,
employer entity, or workforce. It is carried out through illegal, violent, or fraudulent means for profit or
personal benefit. Labor racketeering and organized crime groups have been involved in benefit plan fraud,
violence against union members, embezzlement, and extortion. Our investigations continue to identify
complex financial and investment schemes used to defraud benefit fund assets, resulting in millions of
dollars in losses to plan participants. The schemes include embezzlement or other sophisticated methods
such as fraudulent loans or excessive fees paid to corrupt union and benefit plan service providers. OIG
investigations have demonstrated that abuses involving service providers are particularly egregious due to
their potential for large dollar losses and because the schemes often affect several plans simultaneously.

The OIG is committed to safeguarding American workers from being victimized through labor racketeering
and/or organized crime schemes. The following cases are illustrative of our work in helping to eradicate
both traditional and nontraditional labor racketeering in the nation’s labor unions, employee benefit plans,
and workplaces.

Labor racketeering impacts American workers, employers, and the public through reduced wages and
benefits, diminished competitive business opportunities, and increased costs for goods and services.




28     Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                         Labor Racketeering



                        Benefit Plan Investigations
    The OIG is responsible for combating corruption involving funds in union-sponsored employee benefit
 plans. Pension and health and welfare benefit plans hold hundreds of billions of dollars in assets. Our
 investigations have shown that assets in such plans remain vulnerable to labor racketeering schemes and/
 or organized crime influence. Benefit plan service providers, including accountants, actuaries, attorneys,
 contract administrators, investment advisors, insurance brokers, and medical providers, as well as corrupt
 union officials, plan representatives, and trustees, continue to be a strong focus of OIG investigations.



Illinois Pharmacist Sentenced for                         Former Union President Sentenced
Defrauding Health Insurers of                             for Benefit Plan Embezzlement
$1 .7 Million
                                                          Hector Lopez, the former president of the Metal
Ronald Keilar, an Illinois pharmacist, was                Polishers Union Local 8A-28A and chairman
sentenced on February 21, 2014, to seven years in         of the board of trustees of the Local 8A-28A
prison after being convicted of submitting more than      welfare fund, was sentenced to a prison term
$1.7 million in fraudulent claims for prescription        of four years for his involvement in multiple
drugs he falsely reported having dispensed.               benefit plan embezzlement schemes. Lopez
                                                          was also ordered to pay more than $800,000 in
As part of the scheme, Keilar stole the identities        restitution and forfeit more than $370,000 to the
and insurance information of unsuspecting                 federal government. He was also barred from
pharmacy customers to bill for medication that was        holding a position in a labor organization.
never prescribed. Keilar also forged prescriptions,
patient receipts, and invoices to make the false          Lopez engaged in several schemes to steal
insurance claims appear legitimate. As a result,          from the Local 8A-28A welfare fund, including
between November 2004 and August 2010, Keilar             accepting approximately $740,000 in kickbacks
submitted a total of 603 false claims to Blue Cross       from the plan’s third-party administrator in
and Blue Shield of Illinois and to the United Food        exchange for ensuring the retention of that
and Commercial Workers Unions and Employers               administrator. In addition, Lopez accepted
Midwest Health Benefit Fund, receiving more               approximately $127,000 in kickbacks from the
than $1.7 million in fraudulent payments.                 employer trustee of the local’s welfare fund in
                                                          exchange for authorizing the welfare fund to
This was a joint investigation with the FBI               pay inflated invoices for a union hall renovation.
and the Food and Drug Administration–                     He also admitted to accepting a kickback from
Office of Criminal Investigations. United                 the trustee in exchange for rigging the bidding
States v. Ronald Keilar (N.D. Illinois)                   process to ensure that a sprinkler installation job
                                                          was awarded to a company the trustee controlled.
                                                          As a result of these schemes, Lopez received
                                                          more than $860,000 in illegal kickbacks.

                                                Semiannual Report to Congress: October 1, 2013 — March 31, 2014   29
                                            Labor Racketeering



This was a joint investigation with the Internal                  To help avoid detection and cover up the
Revenue Service (IRS), the Office of Labor-                       scheme, Spikes underreported Fusella Group
Management Standards (OLMS), and the                              drivers’ working hours, a substantial portion
Employee Benefits Security Administration (EBSA).                 of which were improperly worked under the
United States v. Hector Lopez (E.D. New York)                     nonunion trucking company, Alpine. To further
                                                                  conceal the scheme, Fusella Group payroll
New York Business Owners and                                      certifications were falsified to indicate that the
Union Steward Sentenced for                                       company had made, or would make its CBA-
                                                                  required contributions to the benefit funds.
Embezzlement Scheme
                                                                  Vincent Fusella admitted that he fraudulently
Gerardo and Vincent Fusella, co-owners of
                                                                  classified Fusella Group truck drivers, who were
Fusella Groups, Inc., were sentenced to 46
                                                                  IBT Local 282 members, as subcontractors as
months and 2 months in prison, respectively, on
                                                                  an additional deception to avoid paying Federal
October 15, 2013, for embezzling money from
                                                                  Insurance Contributions Act (FICA) taxes.
the International Brotherhood of Teamsters
(IBT) Local 282 Trust Funds. The court ordered
                                                                  This was a joint investigation with the U.S.
Gerardo to forfeit more than $970,000 he
                                                                  Department of Transportation (DOT)–OIG,
obtained as a direct result of the conspiracy
                                                                  the IRS Criminal Investigation Division
and pay more than $627,000 in restitution to his
                                                                  (CID), and the Port Authority of New York
victims. Vincent was also ordered to pay more
                                                                  and New Jersey. United States v. Gerardo
than $161,000 in restitution. Additionally, Willie
                                                                  and Vincent Fusella (E.D. New York)
Spikes, former IBT Local 282 steward, was
sentenced on January 31, 2014, to time served,
and ordered to pay restitution of approximately                   Fictitious Produce Company
$226,000 for his role in the scheme.                              Sentenced and Union Business
                                                                  Agent Pleads Guilty to Bribery
Gerardo and Vincent Fusella co-owned and                          Charges
operated the union-organized trucking company
the Fusella Group, Inc., and the nonunion trucking                On February 11, 2014, Sam LaGrasso Produce
company Alpine Investment Group, Inc. (Alpine).                   was sentenced to pay a $530,400 fine for making
In May 2007, the brothers entered the Fusella                     and agreeing to make prohibited payments
Group into a collective bargaining agreement                      to a labor union official in violation of the Taft-
(CBA) with IBT Local 282. In addition to paying                   Hartley Act. In addition, on December 23, 2013,
each represented driver the prescribed hourly                     Michael Townsend, the former business agent
rate as required by the CBA, the Fusella Group                    and trustee of IBT, Local Union 337, entered a
was obligated to make payments to multiple                        guilty plea to unlawfully and willfully receiving
Local 282 Employee Retirement Income Security                     payments in violation of the Taft-Hartley Act.
Act (ERISA)–covered benefit funds on behalf of
its drivers. The Fusella Group, however, failed                   From June 2005 through mid-July 2008, Towsend
to pay the appropriate hourly wages or to make                    participated in a bribery scheme involving Local
the required union benefit fund contributions.                    337 and LaGrasso Brothers Produce, Inc.

30     Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                      Labor Racketeering



(LBP), whereby he received illegal quarterly              Massachusetts Construction
payments of approximately $1,500 from LBP.                Company Sentenced after Defrauding
The payments were provided to Townsend as
                                                          Union Benefit Funds
bribes to influence his actions and decisions as
a Local 337 business agent, including impeding
                                                          Juan Alonso, owner of Aguila Construction
the local’s organizing efforts regarding LBP.
                                                          Company, was sentenced on November 7, 2013,
LBP officials created the defendant company,
                                                          to one year and one day in prison for stealing
Sam LaGrasso Produce (SLP), as a subsidiary
                                                          from an ERISA benefit plan, falsifying ERISA
that was used to divert attention from Local
                                                          documents, and making false statements. The
337 efforts to unionize LBP. Throughout the
                                                          company, Aguila Construction, was also separately
scheme, Local 337 business agents represented
                                                          sentenced to five years’ probation and ordered to
SLP as a legitimately unionized company with
                                                          forfeit more than $752,000 and to pay more than
collective bargaining authority, although it had
                                                          $782,000 in restitution to the defrauded benefit
none. To add to the deception, LaGrasso family
                                                          funds. Both Alonso and Aguila Construction
members were falsely represented as employees
                                                          Company had previously pled guilty to the charges.
of SLP subject to collective bargaining.

                                                          Between 2008 and 2011, Aguila Construction,
Over the course of the scheme Townsend was
                                                          a unionized construction company located in
paid approximately $18,000 in bribes, and LBP
                                                          Fitchburg, Massachusetts, secured a contract
avoided union organization and having to pay
                                                          covering several publicly funded projects,
an estimated $4.6 million in potential union,
                                                          including 12 projects funded by the Department
health, welfare, and pension remittances.
                                                          of Transportation (DOT) pursuant to the American
                                                          Recovery and Reinvestment Act of 2009. As
This was a joint investigation with EBSA. United
                                                          part of the scheme, Alonso executed a portion
States v. Sam LaGrasso Produce, Inc., and United
                                                          of this contract using workers from his nonunion
States v. Michael Towsend (E.D. Michigan)
                                                          company, Alonso Construction, rather than from
                                                          Aguila Construction, the contract signatory.
                                                          Aguila Construction also completed and sent to
                                                          the Massachusetts DOT certified payroll records
                                                          falsely stating the identities of Aguila Construction
                                                          employees, the number of hours they worked,
                                                          and wages paid to them. By running this scheme,
                                                          which included paying employees in cash, the
                                                          defendants avoided making approximately
                                                          $782,824 in employee benefit contributions.

                                                          This was a joint investigation with DOT-OIG and
                                                          EBSA. United States v. Juan J. Alonso and Aguila
                                                          Construction Company, Inc. (D. Massachusetts)




                                                Semiannual Report to Congress: October 1, 2013 — March 31, 2014   31
                                            Labor Racketeering



Former Benefit Plan Employee                                      information to submit reimbursement claims
                                                                  for services that were never performed. Much
Sentenced for Embezzlement in
                                                                  of the compromised information belonged to
Kansas
                                                                  patients who were participants in and covered by
                                                                  union sponsored benefit plans. As a result of the
Angela Heninger, a former employee of the
                                                                  scheme, Carr received more than $800,000 in
Mobilization, Optimization, and Training Trust
                                                                  reimbursements to which he was not entitled.
(MOST), was sentenced on January 15, 2014,
to 30 months in prison for stealing from an
                                                                  This was a joint investigation with the FBI and
ERISA-covered plan. Heninger was also ordered
                                                                  EBSA. United States v. Andrew Carr (N.D. Illinois)
to pay more than $640,000 in restitution.

From 2006 through 2012, Heninger had access to
a joint labor trust fund of the National Association
of Construction Boilermaker Employees and
the International Brotherhood of Boilermakers.
Using this access, Heninger wrote checks
against the fund to pay charges incurred on two
personal credit cards in her name as well as
a credit card and loan in the name of her son.
Heninger also made unauthorized personal
charges using a credit card issued to her by
MOST and, using her position, arranged to have
the charges paid with benefit plan funds. As a
result, Heninger embezzled more than $400,000
from the Boilermaker Joint Labor Trust Fund.

This was a joint investigation with EBSA. United
States v. Angela Heninger (D. Kansas)


Illinois Chiropractor Pleads Guilty to
Health Care Fraud

Andrew Carr, an Illinois licensed chiropractor,
pled guilty on February 18, 2014, to health
care fraud after defrauding multiple health
care benefit plans, some of which were
union sponsored, of more than $800,000.

From 2005 through February 2011, Carr used
his patients’ sensitive medical and insurance


32     Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                       Labor Racketeering



    Union Corruption and Fraud Investigations
    Subjects of our internal union corruption investigations include officers who abuse their positions of
 authority in labor organizations to embezzle money from union and member benefit plan accounts, and those
 who defraud hardworking members of their right to honest services. Investigations in this area also focus on
 fraud against labor unions, as well as situations in which organized crime groups control or influence a labor
 organization—frequently to influence an industry for corrupt purposes or to operate traditional vice schemes.
 Following are examples of our work in this area.



Former President of SEIU California                        Freeman also stole nearly $17,000 from Local
Local Sentenced for Stealing Tens of                       6434 in June 2008 by convincing the Local 6434
                                                           executive board to make contributions to the
Thousands of Dollars from Union
                                                           Long Term Care Housing Corporation, a not-
                                                           for-profit corporation that developed affordable
Tyrone Ricky Freeman, the former president of
                                                           housing for Local 6434 members, and then
the Service Employees International Union (SEIU)
                                                           diverting the payments to himself. Freeman
Local 6434, was sentenced to 33 months in prison
                                                           further exploited Local 6434 when, using his
for embezzling thousands of dollars in union
                                                           position as president, he directed employees to
assets. As part of his sentencing, he was also
                                                           create and provide false union documentation to
ordered to pay more than $123,000 in restitution
                                                           a federally insured financial institution, resulting
and was prohibited from holding a position in a
                                                           in his receipt of a $695,275 home loan for
labor organization for a period of 13 years.
                                                           which he otherwise would not have qualified.

From the beginning of 2007 through the summer of
                                                           This was a joint investigation with the FBI,
2008, Freeman intercepted salary reimbursements
                                                           IRS-CID, OLMS, and EBSA. United States v.
paid on his behalf by the California United
                                                           Tyrone Ricky Freeman (C.D. California)
Homecare Workers (CUHW) to SEIU Local 6434
for time he spent helping organize the CUHW.
The CUHW is a public-sector union established by
the SEIU and the American Federation of State,
County, and Municipal Employees to represent
public-sector employees working in the California
home care industry. Freeman concealed the
CUHW salary reimbursements from the Local 6434
executive board. He simultaneously concealed
from the CUHW executive board that Local
6434 was still paying him his regular salary.




                                                 Semiannual Report to Congress: October 1, 2013 — March 31, 2014   33
                                           Labor Racketeering



Investment Firm Officials Convicted                              and finances. In December 2011, Lombardo
                                                                 attempted to defraud the NBPA of $3 million via
for Fraudulent Contract with National
                                                                 a fraudulent contract he drafted between the
Basketball Players Association Union
                                                                 NBPA and Prim Capital Corporation. To make
                                                                 the contract appear authentic, Lombardo forged
Joseph Lombardo, founder and managing
                                                                 the signatures of the NBPA’s director of player
director of Prim Capital Corporation, pled guilty on
                                                                 programs and its former general counsel, who
November 14, 2013, to mail fraud and conspiracy
                                                                 had died seven months earlier. Lombardo also
to obstruct justice for his role in a scheme to
                                                                 attempted to alter or conceal the contract by
defraud the National Basketball Players Association
                                                                 withholding it from authorities despite being
(NBPA) union through a fraudulent contract.
                                                                 requested to provide it pursuant to a grand jury
                                                                 subpoena. To further conceal their criminal
On December 11, 2013, after an eight-day trial,
                                                                 behavior, Lombardo and Kaufman conspired to
Carolyn Kaufman, a Prim Capital Corporation
                                                                 develop and developed false testimony regarding
principal, was found guilty of conspiracy
                                                                 the fraudulent contract and subsequently lied to
to obstruct justice, obstructing justice, and
                                                                 the grand jury about its origins and existence.
perjury, for her role in the scheme.

                                                                 This is a joint investigation with OLMS. United
Prim Capital Corporation performed various
                                                                 States v. Joseph Lombardo and Carolyn Kaufman
services for the NBPA and was the primary outside
                                                                 (S.D. New York)
vendor entrusted with the NBPA's investments




34    Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                         Labor Racketeering



               Labor-Management Investigations
     Labor-management relations cases involve corrupt relationships between management and union officials.
  Typical labor-management cases range from collusion between representatives of management and corrupt
  union officials to the use of the threat of “labor problems” to extort money or other benefits from employers.



President / Business Manager of
Local Engineering Union Convicted
at Trial

Mark Kirsch, former president and business
manager of Operating Engineers Local 17,
was convicted on March 7, 2014, by a federal
jury of conspiracy to commit racketeering,
conspiracy to commit extortion, and attempted
extortion, for his role in a criminal enterprise.

From January 1997 to December 2007, Kirsch                        Stars such as this one were used to puncture
participated in or helped direct Local 17 efforts to                the tires of nonunion contractor vehicles.
	
	
extort property from and influence the behavior
of various construction firms throughout western
New York to ensure, among other things, the
payment of wages and benefits for unwanted
or unnecessary labor. The Local 17 criminal
enterprise used violence, threats, intimidation,
and sabotage of property to interrupt and delay
construction projects in order to drive up operating
costs and cause economic harm to contractors
that did not comply with its unlawful mandates.

This was a joint investigation with the FBI
and New York State Police. United States                        Blasting sand poured into equipment of nonunion
v. Mark Kirsch et. al. (W.D. New York)                          contractors to sabotage and render it inoperable
	
	




                                                    Semiannual Report to Congress: October 1, 2013 — March 31, 2014   35
        Labor Racketeering




Departmental Management


                                 Departmental Management


                                      Departmental Management


Consolidated Financial Statements                                 December 16, 2013) and http://www.
Audit                                                             oig.dol.gov/public/reports/oa/2014/22-
                                                                  14-006-13-001.pdf (Report Number 22-
The OIG contracted with an independent public                     14-006-13-001, March 31, 2014).
accounting firm to audit the Department’s
annual consolidated financial statements. The                     Department’s IT Security Program
Department received an unqualified opinion,                       Could Be Improved
meaning that DOL’s FY 2013 financial statements
were presented fairly, in all material respects,                  DOL IT systems contain vital, sensitive information
and in conformity with U.S. generally accepted                    that is central to the Department’s mission and
accounting principles. The independent auditor’s                  the effective administration of its programs.
report identified no material weaknesses but did                  These systems are used to determine and house
identify two significant deficiencies in internal                 the nation’s leading economic indicators, such
controls over financial reporting: a lack of sufficient           as the unemployment rate and the Consumer
information technology (IT) security controls                     Price Index. They also maintain critical data
over key financial and support systems, and                       related to areas such as law enforcement, worker
insufficient controls over grants. The independent                safety and health, pensions, welfare benefits,
auditor also found that DOL made improvements                     job training services, and legal matters.
in FY 2013 that resulted in the elimination of the
significant deficiency reported in FY 2012 related                As part of FY 2013 Federal Information Security
to the preparation and review of journal entries.                 Management Act (FISMA) work completed
                                                                  during this reporting period, the OIG found that
In a separate management advisory comments                        the Department’s Personal Identity Verification
report, the OIG provided additional information                   Program was not yet in place and that programwide
to DOL management intended to improve                             contingency planning did not use IT staff or
internal controls over financial activities. For                  include IT in the testing objectives. We also
example, better reconciliation controls between                   found that programwide Plans of Action and
the U.S. Department of Health and Human                           Milestones were not being properly tracked and
Services’ Payment Management System                               agency report cards, used for monitoring and
and DOL’s accounting system are needed to                         oversight, were not communicated to agencies
prevent misstatements of Job Corps contract-                      on a timely basis. These deficiencies increased
related expenses. By satisfactorily addressing                    DOL information systems’ risks of unauthorized
the comments in this report, management will                      access, data compromise, and unavailability.
help ensure that these issues do not rise to the
level of a significant deficiency in the future.                  To reduce these risks, we recommended that
                                                                  the Department’s Chief Information Officer
To view the full reports, including the                           review and update its policy and procedures
scope, methodologies, and full agency                             for the four security control areas cited above.
response, go to http://www.oig.dol.gov/                           The Department responded that it did not
public/reports/oa/2014/22-14-002-13-001.                          agree that the exceptions identified by the OIG
pdf (Report Number 22-14-002-13-001,                              posed a significant risk to the confidentiality,


38     Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                   Departmental Management



integrity, and availability of data but stated that         for certain activities for FY 2013 and beyond, they
improvements could be made and corrective action            did not eliminate the requirement for these activities
plans have been developed (Report Number                    to be monitored internally. The Department’s
23-14-006-07-725, November 14, 2013).                       selective exclusion of some investments may have
                                                            resulted in an unreliable measurement of total
Improvements Needed to DOL’s                                IT investment performance results and provided
Capital Planning and Investment                             limited executive visibility into some high-risk
                                                            investment activities. We recommended that OCIO
Controls for Managing IT Investments
                                                            update its IT capital planning and investment control
                                                            policies and implement an investment management
In our audit of the Department’s controls over
                                                            framework to strengthen the Department’s
the IT investment process we found that
                                                            approach to IT investment management.
DOL needs to ensure that controls are followed
                                                            OCIO accepted the recommendations (Report
and updated in a timely manner in order for DOL to
                                                            Number 23-14-009-07-723, March 25, 2014).
have better information regarding its IT investments
and to help effectively manage IT investment
costs, schedules, and performance. We reviewed              DOL Implementation of New Systems
15 IT investments and identified 4, totaling about
$365 million, that were not properly classified as          During this reporting period, the OIG also reviewed
major investments and therefore not subjected               the Department’s implementation of cloud e-mail
to increased oversight given their significant              services and the migration of its human resources
cost and potential risk to the government. In               systems to the Department of the Treasury’s
addition, 3 of the sampled IT investments were              Shared Service Center. We identified several
not managed by certified project managers as                system readiness, vendor contract compliance,
required by DOL policy. Without the use of certified        and information security issues that needed
project managers, DOL may not be ensuring                   to be addressed before final implementation.
that investments are consistently monitored                 The Department noted that it was aware of the
and that all investment risks are identified and            identified risks and affirmed that adequate controls
sufficiently addressed. We recommended that                 would be in place prior to deployment. (Report
the Office of the Chief Information Officer (OCIO)          Numbers 23-14-010-07-727, January 31, 2014,
perform a DOL-wide review of the IT portfolio               and 23-14-011-07-727, February 10, 2014)
and the investment management process to
verify that the classification of all IT investments
conforms to DOL policy and ensure that projects
are managed by certified project managers.

We also found that the DOL policy used to monitor
all major investments whose value exceeded a
specified dollar threshold was not aligned with
updated FY 2013 OMB instructions regarding
investment reporting and monitoring. Although
these instructions did not require external reporting

                                                  Semiannual Report to Congress: October 1, 2013 — March 31, 2014   39
                                     Departmental Management




                                           Single Audits
    Office of Management and Budget (OMB) Circular A-133 describes audit requirements for state and local
 governments, colleges and universities, and nonprofit organizations receiving federal awards. Under A-133,
 covered entities that expend $500,000 or more per year in federal awards are required to obtain an annual
 organizationwide audit that includes the auditor’s opinion on the entity’s financial statements and compliance
 with federal award requirements. Nonfederal auditors, such as public accounting firms and state auditors,
 conduct these single audits. The OIG reviews the resulting audit reports for findings and questioned costs
 related to DOL awards, and to ensure that the reports comply with the requirements of A-133.



Single Audits Identify Material Weaknesses and Significant Deficiencies for
12 DOL Grantees

We reviewed 45 single audit reports this period covering DOL expenditures of about $8.4 billion. These
expenditures included about $3.2 billion related to Recovery Act funding. For 12 organizations that received
DOL grant funds, the auditors identified material weaknesses or significant deficiencies, indicating that
improvements are needed in those organizations’ management of DOL funds and/or compliance with
grant requirements. We reported the findings and 27 related recommendations identified in these 12 single
audit reports to the appropriate DOL funding agencies, and requested that the agencies ensure the grantees
take the necessary corrective actions.




40    Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                   Departmental Management


                Employee Integrity Investigations
      The OIG is charged with the responsibility for conducting investigations into possible misconduct or criminal
  activities involving DOL employees or individuals providing services to the Department. The following cases
  is illustrative of our efforts in this area.



Senior Executive Terminated                                  Procurement and Ethics Violations by
from Federal Service for Time and                            Senior Executive Substantiated
Attendance and Other Violations
                                                             An OIG investigation involving allegations of
An OIG investigation involving allegations of                procurement and ethics violations by an SES level
misconduct against a senior executive-level                  employee substantiated some of the allegations
Regional Director found that the employee                    but did not find any criminal violations. The OIG’s
improperly used non-contract air carriers for official       findings were referred to the Department, which
travel, committed time and attendance violations,            was unable to take any disciplinary action because
and used government resources for activities                 the employee was no longer employed by DOL.
relating to outside employment activities. These             The Department agreed to review its procurement
findings were referred to DOL, which removed this            policies to prevent similar violations in the future.
Senior Executive Service (SES) employee from
government service. The employee has filed an
appeal of this termination decision with the MSPB.




                                                   Semiannual Report to Congress: October 1, 2013 — March 31, 2014   41
Legislative Recommendations


                    Legislative Recommendations
    The Inspector General Act requires the OIG to review existing or proposed legislation and regulations
 and to make recommendations in the Semiannual Report concerning their impact on both the economy and
 the efficiency of the Department’s programs and on the prevention of fraud, waste, and abuse. The OIG’s
 legislative recommendations have remained largely unchanged over the last several semiannual reports,
 and the OIG continues to believe that the following legislative actions are necessary to increase efficiency
 and protect the Department’s programs.



Allow OIG Direct Access to Wage                                  does not permit the OIG to obtain NDNH data,
Records                                                          and the OIG cannot use its subpoena authority to
                                                                 obtain NDNH records. Granting the OIG access
State employer quarterly contribution (tax) and                  to NDNH data would serve the same purposes
wage reports are a valuable source of information                described with respect to state wage records.
for both OIG audits and investigations. For
example, these records could be used by OIG                      Amend Pension Protection Laws
auditors to verify the eligibility of Workforce
Investment Act (WIA) participants and verify                     Legislative changes to the Employee Retirement
reported outcomes, and they could be used by                     Income Security Act (ERISA) and criminal
OIG investigators to investigate employer fraud                  penalties for ERISA violations would enhance
schemes in the Unemployment Insurance (UI)                       the protection of assets in pension plans. To
program, claimant fraud in the Federal Employees’                this end, the OIG recommends the following:
Compensation Act (FECA) program, and prevailing
wage violations by federal contractors. While the                • Expand the authority of the Employee
OIG can currently use its administrative subpoena                  Benefits Security Administration (EBSA)
authority to obtain state wage records, this                       to correct substandard benefit plan
process can be inefficient and time consuming.                     audits and ensure that auditors with poor
                                                                   records do not perform additional plan
The National Directory of New Hires (NDNH) is a                    audits . Changes should include providing
nationally consolidated database that contains UI                  EBSA with greater enforcement authority over
claimant data and wage information from state and                  registration, suspension, and debarment,
federal agencies. The NDNH cannot be used for                      and the ability to levy civil penalties against
any purpose not authorized by federal law. In 2004,                employee benefit plan auditors. The ability to
the law was amended to allow the State Workforce                   correct substandard audits and take action
Agencies (SWAs) to cross-match UI claims against                   against auditors is important because benefit
the NDNH to better detect overpayments to UI                       plan audits help protect participants and
claimants who have gone back to work but continue
to collect UI benefits. However, the applicable law


44    Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                 Legislative Recommendations



   beneficiaries by ensuring the proper value of                 1954. Sections 664 and 1027 subject violators
   plan assets and computation of benefits.                      to up to 5 years’ imprisonment, while Section
                                                                 1954 calls for up to 3 years’ imprisonment. We
 		 Repeal ERISA’s limited-scope audit
•		                                                              believe the maximum penalty should be raised
    exemption . This provision excludes pension                  to 10 years for all 3 violations to correspond
    plan assets invested in financial institutions,              with the 10-year penalty imposed by 18
    such as banks and savings and loans,                         U.S.C. § 669 (theft from health care benefit
    from audits of employee benefit plans. The                   programs), to serve as a greater deterrent
    limited-scope audit prevents independent public              and further protect employee pension plans.
    accountants who are auditing pension plans
    from rendering an opinion on the plans’ financial        Provide Authority to Ensure the
    statements in accordance with professional               Integrity of the H-1B Program
    auditing standards. These “no opinion” audits
    provide no substantive assurance of asset                If DOL is to have a meaningful role in the H-1B
    integrity to plan participants or the Department.        specialty-occupations foreign labor certification
                                                             process, it must have the statutory authority to
 		 Require direct reporting of ERISA violations
•		                                                          ensure the integrity of that process, including the
    to DOL . Under current law, a pension plan               ability to verify the accuracy of information provided
    auditor who finds a potential ERISA violation            on labor condition applications. Currently, DOL
    is responsible for reporting it to the plan              is statutorily required to certify such applications
    administrator, but not directly to DOL. To               unless it determines them to be “incomplete
    ensure that improprieties are addressed,                 or obviously inaccurate.” Our concern with the
    we recommend that plan administrators or                 Department’s limited ability to ensure the integrity
    auditors be required to report potential ERISA           of the certification process is heightened by the
    violations directly to DOL. This would ensure            results of OIG analysis and investigations that show
    the timely reporting of violations and would             the program is susceptible to significant fraud and
    more actively involve auditors in safeguarding           abuse, particularly by employers and attorneys.
    pension assets, providing a first line of defense
    against the abuse of workers’ pension plans.
                                                             Improve the Integrity of the FECA
                                                             Program
 		 Strengthen criminal penalties in Title 18 of
•		
    the United States Code . Three sections of
                                                             The OIG believes reforms should be considered
    U.S.C. Title 18 serve as the primary criminal
                                                             to improve the effectiveness and integrity of
    enforcement tools for protecting pension plans
                                                             the FECA program in the following areas:
    covered by ERISA. Embezzlement or theft
    from employee pension and welfare plans
                                                             •				 Statutory access to Social Security wage
    is prohibited by Section 664; making false
                                                                   records and the NDNH . Currently, the
    statements in documents required by ERISA
                                                                   Department can access Social Security
    is prohibited by Section 1027; and giving or
                                                                   wage information only if the claimant gives it
    accepting bribes related to the operation of
                                                                   permission to do so, and it has no access to
    ERISA-covered plans is prohibited by Section
                                                                   the NDNH. Granting the Department routine

                                                   Semiannual Report to Congress: October 1, 2013 — March 31, 2014   45
                                    Legislative Recommendations



     access to these databases would aid in the                    Clarify MSHA’s Authority to Issue
     detection of fraud committed by individuals                   Verbal Mine Closure Orders
     receiving FECA wage loss compensation but
     failing to report income they have earned.                    The Mine Safety and Health Act of 1977 (Mine Act)
                                                                   charges the Secretary of Labor with protecting the
 		 Benefit rates when claimants reach normal
•		                                                                lives and health of workers in coal and other mines.
    federal or Social Security retirement age .                    To that end, the Mine Act contains provisions
    Alternate views have arisen as to whether                      authorizing the Secretary to issue mine closure
    and how benefit rates should be adjusted                       orders. Specifically, Section 103(j) states that
    when beneficiaries reach federal or Social                     in the event of any accident occurring in a coal
    Security retirement age. The benefit rate                      or other mine where rescue and recovery work
    structure for FECA should be reassessed                        is necessary, the Secretary or an authorized
    to determine what an appropriate benefit                       representative of the Secretary shall take whatever
    should be for those beneficiaries who remain                   action he or she deems appropriate to protect the
    on the FECA rolls into retirement. Careful                     life of any person. Under Section 103(k), the Mine
    consideration is needed to ensure that the                     Act states that an authorized representative of the
    benefit rates ultimately established will have                 Secretary, when present, may issue such orders
    the desired effect while ensuring fairness                     as he or she deems appropriate to ensure the
    to injured workers, especially those who                       safety of any person in the coal or other mine.
    have been determined to be permanently
    injured and thus unable to return to work.                     The primary purpose of the Mine Act is to give the
                                                                   Secretary the authority to take appropriate action—
 		 Three-day waiting period . The FECA
•		                                                                including ordering a mine closure—to protect
    legislation provides for a 3-day waiting period                lives. As such, the OIG recommends a technical
    intended to discourage the filing of frivolous                 review of the existing language under Section
    claims. As currently written, the legislation                  103(k) to ensure that MSHA’s long-standing and
    places the waiting period at the end of the                    critically important authority to take whatever
    45-day continuation-of-pay period, thereby                     actions may be necessary, including issuing verbal
    negating its purpose. Legislation passed in                    mine closure orders, to protect miner health and
    2006 placed the waiting period immediately                     safety is clear and not vulnerable to challenge.
    after an employment-related injury for postal
    employees. If the intent of the law is to have a
    true waiting period before applying for benefits,
    then it should likewise come immediately
    after an employment-related injury for all
    federal workers, not just postal employees.




46      Semiannual Report to Congress: October 1, 2013 — March 31, 2014
Appendixes


                                                                                               Appendices
                 Reporting Requirements Under the Following Acts:
                                     Inspector General Act of 1978

     REPORTING                REQUIREMENT                                                         PAGE


     Section 4(a)(2)          Review of Legislation and Regulation                                 44

     Section 5(a)(1)          Significant Problems, Abuses, and Deficiencies                       ALL

     Section 5(a)(2)          Recommendations with Respect to Significant
                              Problems, Abuses, and Deficiencies                                  ALL

     Section 5(a)(3)         Prior Significant Recommendations on Which
                             Corrective Action Has Not Been Completed                              55

     Section 5(a)(4)          Matters Referred to Prosecutive Authorities                          56

     Section 5(a)(5) and      Summary of Instances Where Information Was Refused                 NONE
     Section 6(b)(2)

     Section 5(a)(6)          List of Audit Reports                                               51

     Section 5(a)(7)          Summary of Significant Reports                                       ALL

     Section 5(a)(8)          Statistical Tables on Management Decisions on Questioned Costs       50

     Section 5(a)(9)          Statistical Tables on Management Decisions on Recommendations
                              That Funds Be Put to Better Use                                      49

     Section 5(a)(10)         Summary of Each Audit Report over Six Months Old for
                              Which No Management Decision Has Been Made                           55

     Section 5(a)(11)         Description and Explanation of Any Significant
                              Revised Management Decision                                        NONE

     Section 5(a)(12)        Information on Any Significant Management Decisions
                              with Which the Inspector General Disagrees                         NONE

      Dodd–Frank Wall Street Reform and Consumer Protection Act of 2010

     Section 3(d)             Peer Review Reporting                                                 57

                       American Recovery and Reinvestment Act of 2010

 Section 1553(b)(2)(B)(iii) Whistleblower Reporting                                                58




48      Semiannual Report to Congress: October 1, 2013 — March 31, 2014
s
                                                             Appendixes

                   Funds Recommended for Better Use
                                                  Funds Put to Better Use* Agreed to by DOL
                                                                                                               Number           Dollar Value
                                                                                                              of Reports         ($ millions)
     For which no management decision had been made as of the commencement of the reporting period                 2                     11.5
     Issued during the reporting period                                                                            0                      0.0
     Subtotal                                                                                                      2                     11.5
     For which management decision was made during the reporting period:
        Dollar value of recommendations that were agreed to by management                                         2                     11.5
        Dollar value of recommendations that were not agreed to by management                                                            0.0
     For which no management decision had been made as of the end of the reporting period                          0                      0.0

                                                 Funds Put to Better Use Implemented by DOL
                                                                                                               Number           Dollar Value
                                                                                                              of Reports         ($ millions)
     For which final action had not been taken as of the commencement of the reporting period.                     8                    815.5
     For which management or appeal decisions were made during the reporting period                                2                     11.5
     Subtotal                                                                                                     10                    827.0
     For which final action was taken during the reporting period:
        Dollar value of recommendations that were actually completed                                              2                    282.2
        Dollar value of recommendations that management has subsequently concluded should not or
                                                                                                                                          0.0
         could not be implemented or completed
     For which no final action had been taken by the end of the period                                             8                    544.8
    * The term “recommendation that funds be put to better use” means a recommendation by the OIG that funds could be used more
    efficiently or achieve greater program effectiveness if management took actions to implement and complete the recommendation. This
    term is defined by the Inspector General Act and includes, among other things, reductions in future outlays; deobligation of funds from
    programs or operations; costs not incurred in the future by implementing recommended improvements related to the operations of the
    establishment, a contractor, or a grantee; and any other savings specifically identified, including reverting funds to the U.S. Treasury to
    be used for other purposes.




                                                                 Semiannual Report to Congress: October 1, 2013 — March 31, 2014           49
                                                          Appendixes

                                           Questioned Costs


                                                 Resolution Activity: Questioned Costs*
                                                                                                             Number           Questioned
                                                                                                            of Reports           Costs
                                                                                                                              ($ millions)
 For which no management decision had been made as of the commencement of the reporting period                 21                      22.4
 (as adjusted)
 Issued during the reporting period (not including single audits)                                               1                       0.3
 Single audits                                                                                                  0                       0.0
 Subtotal                                                                                                      22                      22.7
 For which a management decision was made during the reporting period:
     Dollar value of disallowed costs                                                                                                  4.5
     Dollar value of costs not disallowed                                                                                              6.7
 For which no management decision had been made as of the end of the reporting period                           5                      11.5
 For which no management decision had been made within six months of issuance                                   4                      11.2

                                                   Closure Activity: Disallowed Costs
                                                                                                             Number           Disallowed
                                                                                                            of Reports           Costs
                                                                                                                              ($ millions)
 For which final action had not been taken as of the commencement of the reporting period (as                    54                    27.1
 adjusted)
 For which management or appeal decisions were made during the reporting period                                   5                     4.5
 Subtotal                                                                                                        59                    31.6
 For which final action was taken during the reporting period:
    Dollar value of disallowed costs that were recovered                                                                               4.5
    Dollar value of disallowed costs that were written off by management                                                               4.0
    Dollar value of disallowed costs that entered appeal status                                                                        0.0
 For which no final action had been taken by the end of the reporting period                                     54                    23.1

* As defined by the Inspector General Act, questioned costs include alleged violations of law, regulations, contracts, grants, or agreements;
costs not supported by adequate documentation; or the expenditure of funds for an intended purpose that was unnecessary or unreasonable.
Disallowed costs are costs that the OIG questioned during an audit as unsupported or unallowable and the grant/contracting officer has
determined the auditee should repay. The Department is responsible for collecting the debts established. The amount collected may be
less than the amount disallowed, and monies recovered usually cannot be used to fund other program operations and are returned to
the U.S. Treasury.




50      Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                                     Appendixes

                           Final Audit Reports Issued


                                                                                                     Funds Put       Other
                                                                # of Nonmonetary      Questioned
                        Report Name                                                                   to Better     Monetary
                                                                Recommendations        Costs ($)
                                                                                                       Use ($)     Impact ($)
                                                  Veterans Employment and Training
VETS Management
VETS’ Oversight of Florida’s Jobs for Veterans State Grant
Program Needs to Be Strengthened; Report No. 06-14-001-02-
001; 03/27/14                                                              3                    0             0                 0
                                                 Employment and Training Programs
ETA Management
FY 2013 Audit of Consolidated Financial Statements—Information
Technology Control Deficiencies Related to the ETA E-Grants
System, Unemployment Insurance Database Management
System, and General Support System; Report No. 22-14-015-03-
001; 03/31/14                                                              1                    0             0                 0
Workforce Investment Act
Recovery Act: Outcomes from On-the-Job Training National
Emergency Grants; Report No. 18-14-001-03-390; 03/25/14                    1               362,267            0                 0
Goal Totals (3 Reports)                                                    5               362,267            0                 0
                                                       Worker Benefit Programs
Unemployment Insurance
Controls over the Release of the UI Weekly Claims Report Need
Improvement; Report No. 17-14-001-03-315; 01/02/14                         6                    0             0                 0
Office of Workers’ Compensation Programs
FY 2013 Audit of the Consolidated Financial Statements—
Information Technology Control Deficiencies Related to the
OWCP Automated Support Package, Energy Compensation
System, Longshore Disbursement System, and Integrated
Federal Employees’ Compensation System; and the OASAM
Division of Information Technology Management Services
General Support System; Report No. 22-14-014-04-001; 03/31/14              1                    0             0                 0
Federal Employees’ Compensation Act
Special Report Relating to the Federal Employees’ Compensation
Act September 30, 2013; Report No. 22-14-001-04-431; 11/22/13              0                    0             0                 0
Employee Benefits Security Administration
EBSA Could Improve Its Usage of Form 5500 Data; Report No.
05-14-003-12-121; 03/31/14                                                 4                    0             0                 0
Goal Totals (4 Reports)                                                   11                    0             0                 0
                                             Worker Safety, Health, and Workplace Rights
Mine Safety and Health
MSHA Has Taken Steps to Detect and Deter Underreporting of
Accidents and Occupational Injuries and Illnesses but More Action
Is Still Needed; Report No. 05-14-001-06-001; 03/31/14                     2                    0             0                 0
Occupational Safety and Health
Voluntary Protection Program: Controls Are Not Sufficient to
Ensure Only Worksites with Exemplary Safety and Health
Systems Remain in the Program; Report No.02-14-201-10-105;
12/16/13                                                                   7                    0             0                 0
Goal Totals (2 Reports)                                                    9                    0             0                 0




                                                         Semiannual Report to Congress: October 1, 2013 — March 31, 2014    51
                                                          Appendixes

            Final Audit Reports Issued, continued


                                                       Departmental Management
 OASAM Management
 FY 2013 Audit of Consolidated Financial Statements—Information
 Technology Control Deficiencies Related to the OASAM
 E-Procurement System and Employee Computer Network /
 Departmental Computer Network; Report No. 22-14-016-07-001;
 03/31/14                                                                1            0    0   0
 OASAM Information Technology Governance
 Improvements Needed to DOL’s Capital Planning and Investment
 Controls for Managing Information Technology Investments;
 Report No. 23-14-009-07-723; 03/25/14                                   3            0    0   0
 Office of the Chief Financial Officer
 Independent Auditors’ Report on the U.S. Department of Labor's
 FY 2013 Consolidated Financial Statements; Report No. 22-14-
 002-13-001; 12/16/13                                                    11           0    0   0
 Management Advisory Comments Identified in an Audit of the
 Consolidated Financial Statements, for the Year Ended
 September 30, 2013; Report No. 22-14-006-13-001; 03/31/14               29           0    0   0
 FY 2013 Audit of Consolidated Financial Statements—Information
 Technology Control Deficiencies Related to the Office of the Chief
 Financial Officer New Core Financial Management System and
 PeoplePower; Report No. 22-14-013-13-001; 03/31/14                       1            0   0   0
 Goal Totals (5 Reports)                                                 45            0   0   0
 Final Audit Report Totals (14 Reports)                                  70      362,267   0   0




52     Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                                       Appendixes

                                              Other Reports


                                                                                           # of Nonmonetary       Questioned
                                      Report Name
                                                                                           Recommendations         Costs ($)
                                           Worker Safety, Health, and Workplace Rights
Office of Federal Contract Compliance Programs
Verification of OFCCP Remediation Efforts of Prior-Year Information Technology Security;
Report No. 23-14-004-04-410; 03/31/14                                                              0                           0
Occupational Safety and Health
Verification of OSHA Remediation Efforts of Prior-Year Information Technology Security
Recommendations; Report No. 23-14-005-10-001; 03/31/14                                             0                           0
Goal Totals (2 Reports)                                                                            0                           0
                                                     Departmental Management
OASAM Information Assurance
Verification of OCIO Remediation Efforts for Prior-Year Information Technology Security
Recommendations; Report No. 23-14-001-07-725; 03/31/14                                             0                           0
Fiscal Year 2013 Federal Information Security Management Act: DOL Entity-wide Testing;
Report No. 23-14-006-07-725; 11/14/13                                                              2                           0
OASAM Enterprise Services
Verification of OASAM Remediation Efforts of Prior-Year Information Technology Security
Recommendations; Report No. 23-14-002-07-727; 03/31/14                                             0                           0
Cloud Email Services Implementation Review; Report No. 23-14-010-07-727; 01/31/14                  3                           0
HR Works Implementation Review; Report No. 23-14-011-07-727; 02/10/14                              3                           0
Goal Totals (5 Reports)                                                                            8                           0
Other Report Totals (7 Reports)                                                                    8                           0




                                                           Semiannual Report to Congress: October 1, 2013 — March 31, 2014     53
                                                   Appendixes

                  Single Audit Reports Processed


                                                                                      # of Nonmonetary   Questioned
                               Program/Report Name
                                                                                      Recommendations     Costs ($)
Vermont Associates for Training and Development, Inc.; Report No. 24-14-515-03-360;
03/25/14                                                                                     1                    0
SE Works, Inc.; Report No. 24-14-510-03-390; 03/13/14                                        3                    0
Northwest Energy Efficiency Council; Report No. 24-14-509-03-390; 03/12/14                   3                    0
Spectrum Resources, Inc.; Report No. 24-14-508-03-390; 02/27/14                              3                    0
Venice Community Housing Corporation; Report No. 24-14-507-03-390; 01/23/14                  3                    0
Inter-Tribal Council of Arizona, Inc.; Report No. 24-14-506-03-355; 01/15/14                 1                    0
Resource: A Nonprofit Community Enterprise, Inc.; Report No. 24-14-505-03-390;
01/15/14                                                                                      3                   0
The Navajo Nation; Report No. 24-14-503-03-355; 01/09/14                                      1                   0
Youth Conservation Corps; Report No. 24-14-504-03-390; 01/02/14                              2                    0
Community Transportation of America; Report No. 24-14-502-03-390; 11/13/13                    1                   0
State of New York; Report No. 24-14-501-03-315; 11/12/13                                      1                   0
Government of the U.S. Virgin Islands; Report No. 24-14-500-03-315; 11/12/13                  5                   0
Single Audit Report Totals (12 Reports)                                                      27                   0




54    Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                               Appendixes

   Unresolved Audit Reports Over Six Months Old
                                                                         # of Nonmonetary                Questioned
Agency                             Report Name
                                                                         Recommendations                  Costs ($)
                              Nonmonetary Recommendations and Questioned Costs
                                  Status Changed to Unresolved Based on Follow-Up Work
         Selected ESA Information Technology Systems That Support the
OWCP
         FY 2005 Financial Statements; Report No. 23-06-003-04-001; 01/23/06              1                      0
         Notifications of Findings and Recommendations Related to the Federal
         Information Security Management Act Audit of the Office of Federal
OFCCP
         Contract Compliance Program’s Information System; Report Number
         23-10-017-04-410; 09/30/10                                                       2                      0
         Notifications of Findings and Recommendations Related to the Federal
         Information Security Management Act Audit of Occupational Safety and
OSHA
         Health Administration’s Technical Information Management System;
         Report Number: 23-10-018-10-001; 09/30/10                                        3                      0
       Final Management Decision / Final Determination Issued Did Not Resolve; OIG Negotiating with Agency
         OIG Audit of OLMS Compliance Audit Program; Report No. 09-12-001-
OLMS
         04-421; 09/13/12                                                                 1                      0
         Navajo Nation Did Not Adequately Manage Workforce Investment Act
ETA      Grants and Could Serve More Participants with Available Funds;
         Report No. 02-13-202-03-355; 09/30/13                                            2              8,000,000
         The U.S. Department of Labor’s Employment and Training
ETA      Administration Needs to Strengthen Controls over Job Corps Funds;
         Report No. 22-13-015-03-370; 09/20/13                                            1                      0
         Job Corps National Contracting Needs Improvement to Ensure Best
ETA
         Value; Report No. 26-13-004-03-370; 09/27/13                                     2                351,207
         Changes Are Still Needed in the ERISA Audit Process to Increase
EBSA     Protection for Employee Benefit Plan Participants; Report No. 09-12-
         002-12-121; 09/28/12                                                             3                      0
         EBSA Needs to Provide Additional Guidance and Oversight to ERISA
EBSA     Plans Holding Hard-to-Value Alternative Investments; Report No. 09-
         13-001-12-121; 09/30/13                                                          3                      0
                    Final Determination Not Issued by Grant/Contracting Officer by Close of Period
         Improvements Are Needed by the Northwest Pennsylvania Workforce
         Investment Board to Ensure Services Are Documented and Participants
ETA
         Find Jobs Related to the Training Received; Report No. 03-13-002-03-
         390; 09/30/13                                                                    4                      0
ETA      Territory of American Samoa; Report No. 24-13-614-03-390; 09/12/13               4              2,538,651
ETA      State of Minnesota; 24-13-617-03-315; 09/27/13                                   8                315,248
OSHA     University of Illinois; Report No. 24-13-603-10-001; 07/15/12                    2                      0
Total Nonmonetary Recommendations, Questioned Costs                                      36             11,205,106




                                                  Semiannual Report to Congress: October 1, 2013 — March 31, 2014     55
                                                        Appendixes

                                  Investigative Statistics


                                                                                                     Division
                                                                                                                        Total
                                                                                                      Totals
 Cases Opened:                                                                                                           178
 Program Fraud                                                                                          143
 Labor Racketeering                                                                                      35
 Cases Closed:                                                                                                           253
 Program Fraud                                                                                          218
 Labor Racketeering                                                                                      35
 Cases Referred for Prosecution:                                                                                         143
 Program Fraud                                                                                          121
 Labor Racketeering                                                                                      22
 Cases Referred for Administrative/Civil Action:                                                                         89
 Program Fraud                                                                                          75
 Labor Racketeering                                                                                     14
 Indictments:                                                                                                            199
 Program Fraud                                                                                          139
 Labor Racketeering                                                                                      60
 Convictions:                                                                                                            234
 Program Fraud                                                                                          169
 Labor Racketeering                                                                                      65
 Debarments:                                                                                                             27
 Program Fraud                                                                                           4
 Labor Racketeering                                                                                     23
 Recoveries, Cost-Efficiencies, Restitutions, Fines/Penalties, Forfeitures, and Civil
                                                                                                                         $33,845,739
 Monetary Actions:
 Program Fraud                                                                                      $21,295,045
 Labor Racketeering                                                                                 $12,550,694

 Recoveries: The dollar amount/value of an agency’s action to recover or to reprogram funds or to make other
                                                                                                                          $4,381,266
 adjustments in response to OIG investigations
 Cost-Efficiencies: The one-time or per annum dollar amount/value of management’s commitment, in response to
                                                                                                                          $4,111,492
 OIG investigations, to utilize the government’s resources more efficiently
 Restitutions/Forfeitures: The dollar amount/value of restitutions and forfeitures resulting from OIG criminal
                                                                                                                         $23,658,804
 investigations
 Fines/Penalties: The dollar amount/value of fines, assessments, seizures, investigative/court costs, and other
                                                                                                                          $1,562,017
 penalties resulting from OIG criminal investigations
 Civil Monetary Actions: The dollar amount/value of forfeitures, settlements, damages, judgments, court costs, or
                                                                                                                              $132,160
 other penalties resulting from OIG criminal investigations
 Total:                                                                                                                 $33,845,7391
¹These monetary accomplishments do not include the following case, which involved the participation of DOL-OIG and other law
enforcement agencies:
    • The former owner of a construction company involved in a Disadvantaged Business Enterprise fraud scheme was ordered to pay
    criminal restitution of $119,409,724 to the U.S. Department of Transportation, jointly and severally with four other co-defendants.




                                                                                                                          1


56      Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                               Appendixes



                            Peer Review Reporting
    The following meets the requirement under Section 989C of the Dodd–Frank Wall Street Reform and
 Consumer Protection Act (P.L. 111-203) that the Inspectors General include their peer review results as
 an appendix to each semiannual report. Federal audit functions can receive a rating of “pass,” “pass with
 deficiencies,” or “fail.” Federal investigation functions can receive a rating of “compliant” or “noncompliant.”



Peer Review of DOL-OIG Audit Function

The Social Security Administration–OIG conducted a peer review of the system of quality control for
DOL-OIG’s audit function for FY 2012. The peer review report, which was issued on March 15, 2013,
resulted in an opinion that the system of quality control was suitably designed and provided reasonable
assurance of DOL-OIG’s conforming to professional standards in its conduct of audits. The peer review
 gave DOL-OIG a pass rating and made no recommendations.


Peer Review of DOL-OIG Investigative Function

In FY 2013, the Department of Homeland Security–OIG conducted a peer review of the system of internal
safeguards and management procedures for DOL-OIG’s investigative function for the period ending
March 31, 2013. This peer review, which concluded in September 2013, found DOL-OIG to be compliant
and did not identify any observations, findings, or deficiencies. This peer review recognized a best practice
in case management.


DOL-OIG Peer Review of DOJ-OIG Investigative Function

DOL-OIG conducted an external peer review of the Department of Justice (DOJ)–OIG’s system of internal
safeguards and management procedures for the investigative function for the period ending October 31, 2012.
This peer review, which concluded in April 2013, found DOJ-OIG to be compliant and did not identify any
 observations, findings, or deficiencies. This peer review recognized four best practices—two in computer
forensics, one in case management, and one in training.




                                                  Semiannual Report to Congress: October 1, 2013 — March 31, 2014   57
                                                  Appendixes



                           Whistleblower Reporting
     Under the American Recovery and Reinvestment Act of 2009 (Recovery Act) (P.L. 111-5), an employee of
 any nonfederal employer receiving covered Recovery Act funds may not be discharged, demoted, or otherwise
 discriminated against as a reprisal for disclosing information that the employee reasonably believes is evidence of
 (1) gross mismanagement of an agency contract or grant relating to covered funds; (2) a gross waste of covered
 funds; (3) a substantial and specific danger to public health or safety related to the implementation or use of covered
 funds; (4) an abuse of authority related to the implementation or use of covered funds; or (5) a violation of law,
 rule, or regulation related to an agency contract or grant awarded or issued relating to covered funds. Further, the
 Recovery Act states that any person who believes he or she has been subjected to a prohibited reprisal may submit
 a complaint to the appropriate Office of Inspector General (OIG), and the OIG must, subject to several limited
 exceptions, investigate the complaint and submit a report to the agency head. The following meets the requirements
 under this act that the Inspectors General include in each semiannual report a list of those investigations for which
 the Inspector General received an extension beyond the applicable 180-day period to conduct an investigation
 and submit a report (Section 1553(b)(2)(B)(iii)), and a list of those investigations the Inspector General decided
 not to conduct or continue (Section 1553(b)(3)(C)).

During this semiannual reporting period, we reviewed three Recovery Act whistleblower complaints and after
careful consideration decided that an investigation by us was not warranted because the complaints fell under
the jurisdiction of other Offices of Inspectors General.

First, an individual submitted a complaint to the OIG claiming that she was retaliated against, and had her
employment terminated, after she reported allegations of wrongdoing involving the use of Weatherization
Assistance Program funds. The OIG determined that the Recovery Act funds in question were appropriated to
the Department of Energy, and the OIG advised the individual to contact the Department of Energy–OIG about
her retaliation complaint.

Second, an individual submitted a complaint to the OIG claiming that she had been retaliated against after
reporting alleged abuse of Recovery Act funds. The complainant indicated that she had previously been in
contact with the Department of Commerce OIG with respect to her concerns. The OIG determined that, based
on the information the complainant provided, it appeared that the Recovery Act funds in question were
appropriated to the Department of Commerce, and the OIG advised the individual to follow up with the
Department of Commerce–OIG about her retaliation complaint.

Third, an individual submitted a complaint to the OIG claiming that she had been retaliated against after
reporting concerns involving Recovery Act funds, along with other issues. The OIG determined that the subject
of the individual’s complaint received Recovery Actfunds appropriated to the Department of Education, and
the OIG advised the individual to follow up with the Department of Education–OIG about her retaliation
complaint.

The OIG also received two Recovery Act whistleblower complaints during this semiannual reporting period
that are currently under review. In both cases, the complainant claimed that he or she was terminated from
employment after reporting allegations of wrongdoing involving Recovery Act funds appropriated to DOL.

58    Semiannual Report to Congress: October 1, 2013 — March 31, 2014
                                                        Appendixes



                                                  OIG Hotline
   The OIG Hotline provides a communication link between the OIG and persons who want to report alleged
violations of laws, rules, and regulations; mismanagement; waste of funds; abuse of authority; or danger
to public health and safety. During the reporting period October 1, 2013, through March 31, 2014, the OIG
Hotline received a total of 860 contacts. Of these, 234 were referred for further review and/or action.




   Complaints Received (by Method Reported):                                                                              Totals
   Telephone                                                                                                                       386
   E-mail/Internet                                                                                                                 373
   Mail                                                                                                                             93
   Fax                                                                                                                               8
   Walk-In                                                                                                                           0
   Total                                                                                                                           860


   Complaints Received (by Source):                                                                                       Totals
   Complaints from Individuals or Nongovernment Organizations                                                                      800
   Complaints/Inquiries from Congress                                                                                               10
   Referrals from the Government Accountability Office                                                                              18
   Complaints from Other DOL Agencies                                                                                               15
   Complaints from Other (Non-DOL) Government Agencies                                                                              17
   Total                                                                                                                           860


   Disposition of Complaints:                                                                                             Totals
   Referred to OIG Components for Further Review and/or Action                                                                    128
   Referred to DOL Program Management for Further Review and/or Action                                                             76
   Referred to Non-DOL Agencies/Organizations                                                                                      30
   No Referral Required / Informational Contact                                                                                   642
   Total                                                                                                                         876*


  * During this reporting period, the hotline office referred several individual complaints to multiple offices or entities for review
  (e.g., to multiple OIG components, or to an OIG component and DOL program management and/or a non-DOL agency).




                                                            Semiannual Report to Congress: October 1, 2013 — March 31, 2014              59
Office of Inspector General, U.S. Department of Labor
             200 Constitution Avenue, NW
                     Room S-5506
                Washington, DC 20210


 To learn more about the Office of Inspector General’s
current and planned work, please visit www.oig.dol.gov
                  Office of Inspector General
               United States Department of Labor


  Report Fraud, Waste, and Abuse

             Call the Hotline
     202.693.6999      800.347.3756
             E-mail: hotline@oig.dol.gov
                Fax: 202.693.7020




  The OIG Hotline is open to the public and to federal employees
 24 hours a day, 7 days a week to receive allegations of fraud, waste,
and abuse concerning Department of Labor programs and operations.

                             OIG Hotline
                       U.S. Department of Labor
                      Office of Inspector General
                     200 Constitution Avenue, NW
                             Room S-5506
                        Washington, DC 20210
